<html>
<title> - RECALCITRANT COUNTRIES: DENYING VISAS TO COUNTRIES THAT REFUSE TO TAKE BACK THEIR DEPORTED NATIONALS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]







RECALCITRANT COUNTRIES: DENYING VISAS TO COUNTRIES THAT REFUSE TO TAKE 
                     BACK THEIR DEPORTED NATIONALS

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 14, 2016

                               __________

                           Serial No. 114-140

                               __________

Printed for the use of the Committee on Oversight and Government Reform





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]









         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

25-546 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          

















              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, Jr., Tennessee       CAROLYN B. MALONEY, New York
JIM JORDAN, Ohio                     ELEANOR HOLMES NORTON, District of 
TIM WALBERG, Michigan                    Columbia
JUSTIN AMASH, Michigan               WM. LACY CLAY, Missouri
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
SCOTT DesJARLAIS, Tennessee          JIM COOPER, Tennessee
TREY GOWDY, South Carolina           GERALD E. CONNOLLY, Virginia
BLAKE FARENTHOLD, Texas              MATT CARTWRIGHT, Pennsylvania
CYNTHIA M. LUMMIS, Wyoming           TAMMY DUCKWORTH, Illinois
THOMAS MASSIE, Kentucky              ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDA L. LAWRENCE, Michigan
RON DeSANTIS, Florida                TED LIEU, California
MICK MULVANEY, South Carolina        BONNIE WATSON COLEMAN, New Jersey
KEN BUCK, Colorado                   STACEY E. PLASKETT, Virgin Islands
MARK WALKER, North Carolina          MARK DeSAULNIER, California
ROD BLUM, Iowa                       BRENDAN F. BOYLE, Pennsylvania
JODY B. HICE, Georgia                PETER WELCH, Vermont
STEVE RUSSELL, Oklahoma              MICHELLE LUJAN GRISHAM, New Mexico
EARL L. ``BUDDY'' CARTER, Georgia
GLENN GROTHMAN, Wisconsin
WILL HURD, Texas
GARY J. PALMER, Alabama

                   Jennifer Hemingway, Staff Director
                      Dimple Shah, Senior Counsel
                    Sharon Casey, Deputy Chief Clerk
                 David Rapallo, Minority Staff Director
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 14, 2016....................................     1

                               WITNESSES

Ms. Michele Thoren Bond, Assistant Secretary, Bureau of Consular 
  Affairs, U.S. Department of State
    Oral Statement...............................................     6
    Written Statement............................................     8
Mr. Daniel Ragsdale, Deputy Director, Immigration and Customs 
  Enforcement, U.S. Department of Homeland Security
    Oral Statement...............................................    13
    Written Statement............................................    15

                                APPENDIX

Immigration and Nationality Act Section 243......................    62
OIG Report 061616 Release of Jean Jacques from ICE Custody.......    63

 
RECALCITRANT COUNTRIES: DENYING VISAS TO COUNTRIES THAT REFUSE TO TAKE 
                     BACK THEIR DEPORTED NATIONALS

                              ----------                              


                        Thursday, July 14, 2016

                  House of Representatives,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The committee met, pursuant to call, at 9:32 a.m., in Room 
2154, Rayburn House Office Building, Hon. Jason Chaffetz 
[chairman of the committee] presiding.
    Present: Representatives Chaffetz, Mica, Jordan, Walberg, 
Amash, Meadows, DeSantis, Buck, Walker, Blum, Hice, Russell, 
Carter, Grothman, Palmer, Cummings, Maloney, Lynch, Connolly, 
Cartwright, Kelly, Lawrence, Lieu, and Plaskett.
    Chairman Chaffetz. The Committee on Oversight and 
Government Reform will come to order. And without objection, 
the chair is authorized to declare a recess at any time.
    I appreciate the members being here. I would also like to 
take the opportunity to note the presence of our colleague 
Congressman Joe Courtney of Connecticut, who is here. We 
appreciate your interest in this topic and welcome your 
participation today.
    I ask unanimous consent that Congressman Courtney be 
allowed to fully participate in today's hearing. Without 
objection, so ordered.
    We are here today to talk about ``Recalcitrant Countries: 
Denying Visas to Countries That Refuse to Take Back Deported 
Nationals.'' Let me try to just ad-lib and summarize the 
situation.
    We have people that come here legally to this country; we 
have people that come here illegally to this country. But there 
is a population here that may have overstayed a visa. They may 
have come here on a tourist visa or a student visa, but they 
were supposed to go home and they didn't and they are here 
illegally.
    Nevertheless, there is a large population of people that 
are in this country illegally. Unfortunately, there is also a 
criminal element to this population. The discussion that we are 
having today is about the criminal element, the criminal 
element within that illegal immigration population. I don't 
think there is an argument on any side of this equation to deal 
with the criminal element in a much more serious, sophisticated 
way and something that is fair to the American people and to 
our country.
    Since 2013, there are some 86,288 people who are here 
legally, committed a crime, got caught, convicted of that 
crime, and instead of being deported, they were released back 
out into the United States of America. These 86,288 people, 
again, just since 2013, committed some 231,074 crimes. That is 
a lot of criminal activity that can be totally and wholly 
avoided.
    Now, the administration has given a couple different 
excuses as to why they can't deport these people, and I don't 
understand that, and that is why we are having this hearing. We 
have had a couple of hearings were we have highlighted and 
discussed this in the past.
    Some have said it is money. It is not money. In fact, ICE 
tried to give back--Homeland Security tried to take $113 
million from ICE's enforcement budget asked Congress in June of 
2015 to reprogram it to other DHS components with no role, no 
role in immigration enforcement. So Congress has allocated, 
again, $113 million, and ICE is saying, hey, we don't need it. 
Let's put it somewhere else. So it is not going to be the 
money. That is not going to be a good excuse.
    Some have said, well, these other countries won't take 
them. Well, Congress before my time in the Immigration and 
Nationality Act, section 243(d), contemplated the idea that we 
would find a criminal alien and we would want to deport them 
and the country would say, well, you know, we don't want the 
back. They are your problem now that they are in your country.
    Here is what the law says, okay? I want to read the law. 
The law says ``If a foreign country denies or unreasonably 
delays accepting an alien who is a citizen, subject, national, 
or resident of that country after the Attorney General''--which 
also now includes this Secretary of Homeland Security--``asks 
whether the government will accept the alien under this 
section, the Secretary of State shall''--not if, not might--
``shall order consular officers in that foreign country to 
discontinue granting immigrant visas or nonimmigrant visas or 
both to citizens, subjects, nationals, and residents of that 
country until the Attorney General''--also read to mean the 
Secretary of Homeland Security--``notifies the Secretary that 
the country has accepted the alien.''
    Now, as best we can tell, this important provision has only 
been used one time, and on that occasion it proved highly 
effective. On September 7 of 2001, the Attorney General 
requested the Secretary of State impose sanction on Guyana for 
refusing to issue travel documents for its nationals. On 
October 10, 2001, the State Department stopped granting 
nonimmigrant visas to employees of the government of Guyana, 
their spouses, and their children. Within 2 short months, 
Guyana issued travel documents to 112 of the 113 Guyanese 
aliens who had been ordered removed from the United States, and 
the sanction was lifted. We went back to Guyana, we said we are 
not going to do this anymore, they changed their ways, they 
went back to their country, and it was proved highly effective.
    We are here today to have a discussion--and I really do 
appreciate Ambassador Bond being here--to understand why the 
State Department is not doing this because, much to my 
surprise--I was highly skeptical when the head of ICE came in 
and said, well, we have been asking, we have been trying to do 
this. And I thought really? Come on, show me some 
documentation. There is some documentation there that they have 
been trying to do this, but it does not appear that the State 
Department has been actually taking the step that is required 
by the law.
    And this decision has real consequences. On April 28 of 
2016, Wendy Hartling testified before this committee. She is 
the mother of Casey Chadwick. Casey was stabbed to death and 
stuffed into a closet on June 15 of 2015 by a criminal alien 
Jean Jacques. Prior to killing Casey, Mr. Jacques was found 
guilty of attempted murder on June 9 of 1997 and served 16 
years in prison in Connecticut. He was released from prison in 
April of 2012. He should have automatically been deported back 
to his home country of Haiti after he was released from prison, 
but instead, he was released from custody because Haiti refused 
to take him back, and we just accepted that. We just say, okay, 
Haiti, we will go ahead and keep him here in the United States.
    And while ICE placed him in on a reporting schedule, he 
failed to report on multiple occasions. So not only did he have 
the murder, he is supposed to report, he doesn't, and 
ultimately, he ended up killing Casey Chadwick in cold blood. 
He was found guilty of murder on April 11 of 2016, and today, 
we are going to talk about only a portion of the criminal 
aliens released each year into the American streets.
    The 8,000--these numbers are so big--the 8,275 criminal 
aliens released in the last 3 years under Zadvydas represent 
only 9.5 percent of the 86,288 total criminal aliens, again, a 
Supreme Court decision where ICE, Homeland Security is saying, 
hey, we can't continue to hold these people in perpetuity. We 
have to release them.
    And let me just give you 1 year's statistics and then we 
will go on. In last year alone ICE, Immigration and Customs 
Enforcement, released, released--keep in mind, these people 
committed crimes. They are convicted of these crimes. They are 
in our possession and we release them out in the public. 
Nineteen thousand seven hundred and twenty-three criminal 
aliens, who among them had 64,197 convictions, including 934 
sex offenses, 804 robberies, 216 kidnappings, and 196 homicide-
related convictions, how do you look the parents in the eye of 
somebody who is murdered, their son or daughter, because the 
government said, well, you know, it is in the best interest to 
just let them go back into the public here in the United 
States?
    In instituting section 243(d), Congress concluded ensuring 
public safety was the government's primary duty and it must be 
its first priority. That is the heart of the hearing that we 
are going to have today. I do appreciate the witnesses.
    Chairman Chaffetz. And with that, I will yield back and 
recognize the ranking member, Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman. I want to 
thank our witnesses for being with us today to discuss this 
very important topic that is crucial to the safety of all of 
our communities.
    In April we heard testimony from families whose children's 
lives were sadly cut short. Casey Chadwick's family told the 
story of her murder at the hands of Jean Jacques, someone our 
government tried unsuccessfully to deport. I was especially 
pained to hear that because of the actions of the Haitian 
Government and Haitian officials, someone who everybody agreed 
should not be in this country was allowed back on our streets 
to do more harm.
    Since then, the inspector general of the Department of 
Homeland Security issued a report at the request of Connecticut 
lawmakers, including our distinguished colleague Congressman 
Joe Courtney, who has joined us today. That report found that 
Haitian officials repeatedly, refused to repatriate Mr. 
Jacques, but it also found that Immigration and Customs 
Enforcement could have done more. In other words, they could 
have done better.
    ICE officials never raised this case to the State 
Department because they believed it would do nothing with it. I 
want to make sure we are doing everything we can to ensure that 
countries take back their citizens with dangerous criminal 
records. I joined with the chairman in sending bipartisan 
letters to ICE and the Department of State's Bureau of Consular 
Affairs requesting information on procedures for addressing 
recalcitrant countries and inviting these agencies to testify 
here today.
    I understand that diplomacy is indeed complicated, but we 
cannot use the cloak of flexibility to rationalize not taking 
firm action when it is indeed warranted. It is critical that we 
remain vigilant. It is critical that we remain effective and 
efficient when we are dealing with these recalcitrant countries 
in trying to protect our own.
    The Immigration and Nationality Act allows the United 
States to shut off visas to foreign countries when the 
Secretary of Homeland Security makes a formal notification to 
the Secretary of State that a country is being recalcitrant. 
And I am not arguing that this blunt tool should be used at the 
drop of a hat, but it can be used in targeted ways to send the 
appropriate message to these countries.
    Our government used this statute, as the chairman said, to 
cut off visas to government officials and their families in 
Guyana in 2001. That proved to be effective, forcing Guyana to 
cooperate and accept the return of 112 out of 113 nationals 
awaiting deportation from the United States. I understand that 
we cannot use this drastic measure in all cases.
    Denying visas in every instance would not always secure a 
country's cooperation, especially a country whose government 
controls civilian travel. If the United States used this tool 
at every moment of difficulty with a foreign country, we would 
open ourselves up to retaliation, we would isolate ourselves 
from the world, and our country's economy would grind to a 
halt.
    What I hope we can do today is examine how we can use this 
tool and others effectively and how coordination between 
agencies can be improved. The memorandum of understanding 
between ICE and Consular Affairs outlines how the agencies 
employ a series of tools to address recalcitrant countries, 
including sending formal letters to foreign countries in 
considering more serious next steps. I am pleased to learn that 
ICE has added the additional step of consular interviews for 
all deportees to Haiti. I also understand that ICE is working 
on a pilot tool to better identify and analyze recalcitrant 
countries, which I look forward to hearing about more today.
    I still believe ICE could be providing clearer guidance to 
its officials as to how and when they should alert State about 
individual cases. In addition, I am curious to hear that State 
is mandating that staff in Consular Affairs raise the issue of 
deportations in every formal interaction with recalcitrant 
country officials and that all chiefs of mission have been 
directed to emphasize with host government officials the high 
priority the United States places on removing dangerous 
criminal deportees.
    I am also grateful that we are digging into this issue 
today. It is a very important issue, and I hope that we do so 
in a productive, bipartisan manner.
    It is unfortunate that so many of our headlines today 
include divisive anti-immigrant rhetoric. Immigration provides 
the backbone for our country's success. People who commit 
violent crimes make up a very small portion of the immigrants 
in this country. Overall, immigrants are less likely to commit 
serious crimes or to be incarcerated than U.S. citizens, and 
high rates of immigration are associated with lower rates of 
violent crime and property crime.
    And so in the same way that we are digging into this issue 
today, we need to dig deep, very deep into the rest of our 
broken immigration system in a very comprehensive manner.
    And so I want to thank the witnesses again. I look forward 
to your testimony, and I am hoping, I am hoping that we will 
find ways to be more effective and efficient in addressing 
these issues, which the chairman and I have rightfully brought 
before this committee today.
    And with that, Mr. Chairman, I yield back.
    Chairman Chaffetz. I thank the gentleman.
    And I do agree that we have got to fix legal immigration. 
It doesn't work in this country, and I wish we would do more on 
the immigration front.
    I would like to ask unanimous consent to enter into the 
record nine items--bear with me as I read through each of 
these--a September 19, 2014, letter from Secretary Johnson to 
Secretary Kerry; a November 25, 2014, letter from Secretary 
Kerry to Secretary Johnson; an April 13, 2016, letter from 
Michele T. Bond to Director Saldana; two other letters from 
Michele Bond to Director Saldana, one of June 22, 2016, another 
on June 30, 2016, and an additional one of June 30, 2016, from 
Michele Bond to Director Saldana; a breakdown of the 
nationalities associated with the United States Immigration and 
Customs Enforcement releases in fiscal year 2015 and '16; year-
to-date pursuit of Zadvydas v. Davis; a June 7, 2016, 
submission from Director Saldana to the committee containing an 
overview of the problems ICE is facing involving recalcitrant 
countries; and communications from Director Saldana to Michele 
Bond from May 8 to May 13, 2016; and finally, a Weekly 
Departure and Detention Report from June 20 of 2016.
    Without objection, we are going to enter these into the 
record. And so ordered.
    Chairman Chaffetz. We will hold the record open for 5 
legislative days for any members who would like to submit a 
written statement.
    We will now recognize our witnesses. We are pleased and 
honored to have the Honorable Michele Thoren Bond, assistant 
secretary for the Bureau of Consular Affairs in the United 
States Department of State. Ambassador, we appreciate you being 
here. Mr. Daniel Ragsdale, deputy director for the United 
States Immigration and Customs Enforcement. We appreciate you 
both being here. You have served our country honorably, and we 
understand and appreciate your patriotism and again thank you 
for being here today.
    Pursuant to committee rules, it is practice that all 
witnesses are to be sworn before they testify, so if you will 
please rise and raise your right hand.
    [Witnesses sworn.]
    Chairman Chaffetz. Thank you. Let the record reflect that 
both witnesses answered in the affirmative.
    I think you have participated in this in the past. We will 
give me some leeway. We would like to limit your verbal 
comments to 5 minutes, but we will give you great latitude. 
Your entire written statement will be made part of the record.
    Ambassador Bond, you are now recognized for 5 minutes.

                       WITNESS STATEMENTS

                STATEMENT OF MICHELE THOREN BOND

    Ms. Bond. Thank you, and good morning, Chairman Chaffetz, 
Ranking Member Cummings, and distinguished members of the 
committee. Thank you for this opportunity to testify today on 
the topic of repatriating aliens who are subject to final 
orders of removal.
    The majority of the world's nations understand their legal 
and moral obligation to assist with the lawful repatriation of 
their citizens, including those who have been convicted of 
crimes and served their sentences. Currently, 23 countries 
routinely fail to document and accept their citizens for 
repatriation in a timely manner. My written statement describes 
the actions taken by the Department of State in close 
cooperation with ICE to bring these countries into compliance 
with their international obligations and to secure the 
repatriation of aliens under final orders of removal.
    The protection of U.S. citizens is the highest priority of 
the Department of State. The Bureau of Consular Affairs leads 
the Department's efforts to protect U.S. citizens, and we are 
committed to assisting ICE to return all aliens who have been 
issued final orders of removal, especially those who pose a 
threat to public safety and security in the United States.
    In 2011, ICE and Consular Affairs signed a memorandum of 
understanding, which improved our cooperation on repatriations. 
Consular Affairs has a dedicated team that works closely with 
ICE on this issue here in Washington and at our diplomatic 
missions overseas. Together, we remind foreign governments of 
their responsibilities to accept their nationals swiftly, work 
to resolve difficulties and delays, and monitor progress.
    As you mentioned, in March 2015, I directed my staff to 
raise the issue of removals in every formal interaction with 
foreign officials from recalcitrant countries. I personally 
have raised the issue on numerous occasions in the past year 
with senior foreign government officials, including from 
Liberia, Guinea, China, India, and Cuba, among others. Today, a 
delegation of senior consular and Homeland Security officials 
is once again raising this issue with our Cuban counterparts in 
Havana.
    Recalcitrant countries vary considerably in capacity, 
political circumstances, and history. Each has different 
reasons for delays in repatriations, including limited law 
enforcement capacity, inadequate records, inefficient 
bureaucracy, and in some cases intentional policy. Some 
countries that are willing to cooperate in principle, are beset 
with internal problems so severe that repatriations become a 
low priority.
    The tools we use to persuade recalcitrant countries to 
cooperate are equally varied and form part of our comprehensive 
diplomatic engagement. This is an ongoing, long-term effort to 
establish reliable and dependable procedures that work for 
every country. The Department of State works closely with ICE 
and other DHS colleagues to identify the most effective path 
forward in each case taking into consideration each country's 
specific situation and other important U.S. interests.
    One tool at our disposal is section 243(d) of the 
Immigration and Nationality Act under which the Secretary of 
Homeland Security may send a notification to the Secretary of 
State, who then orders consular officials to discontinue 
granting immigrant visas or nonimmigrant visas or both. State 
has and will implement such restrictions in consultation with 
DHS as necessary.
    These restrictions can be a powerful means to address 
recalcitrant countries, but they are not the only and in many 
cases are not the most effective option. Some recalcitrant 
countries such as China and Cuba control the foreign travel of 
their citizens and maybe unmoved by our imposition of visa 
restrictions. Countries may retaliate in ways detrimental to 
wider U.S. economic or security concerns, including trade, 
tourism, and law enforcement cooperation.
    Experience with many recalcitrant countries shows we can 
achieve significant improvements in compliance through 
diplomatic engagement in Washington and abroad to address 
resource capacity and other obstacles. Of course, we do not 
limit our efforts to those 23 countries currently deemed 
recalcitrant by ICE. We also seek to address shortcomings as 
they become apparent and before a country is found to be 
recalcitrant.
    There are times where even countries generally considered 
compliant need specific reminders or engagement concerning 
repatriations. This may be to clarify a new process or 
procedure, to facilitate a particularly difficult case, or to 
highlight the importance of this issue following a change in 
government.
    Mr. Chairman, Ranking Member Cummings, distinguished 
members of the committee, I assure you that where diplomatic 
engagement over time has not produced results, State is 
prepared to increase pressure through all available channels, 
including in cooperation with DHS the imposition of visa 
sanctions.
    We appreciate the support of Congress as we continuously 
work to safeguard U.S. citizens around the world. And I look 
forward to your questions. Thank you.
    [Prepared statement of Ms. Bond follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
    Chairman Chaffetz. Thank you, Ambassador.
    Mr. Ragsdale, you are now recognized for 5 minutes.

                  STATEMENT OF DANIEL RAGSDALE

    Mr. Ragsdale. Good morning. Chairman Chaffetz, Ranking 
Member Cummings, and distinguished members of the committee, 
thank you for the opportunity to appear before you today to 
discuss U.S. Immigration and Customs Enforcement's efforts 
regarding the ongoing challenge of uncooperative countries who 
do not accept the return of their citizens and nationals.
    The law enforcement office of ICE worked tirelessly to 
identify, to arrest, detain, and remove individuals to best 
promote national security, border security, and public safety. 
Our fiscal year 2015 removal statistics illustrate these 
efforts. Last year, we conducted 235,000 removals. Fifty-nine 
percent of those removals involved individuals who were 
previously convicted of a crime. Ninety-eight percent of those 
removals met one or more of DHS's immigration enforcement 
priorities.
    To effectuate a removal, two important elements are 
required. First, the person must be subject of an 
administrative order--final order of removal, and a travel 
document issued by the individual's home country must be in 
ICE's possession.
    Although a majority of countries agree to take--agree to 
their international obligations to accept the timely returns of 
their citizens, we face challenges with certain countries that 
systematically refuse or delay the return of their nationals. 
Delays in the removal process significantly challenge the 
limits of our detention authority following the 2001 U.S. 
Supreme Court's decision in Zadvydas v. Davis. But let me be 
clear. We do not release aliens we can remove.
    To ensure that we are focusing our removal efforts most 
effectively, we have implemented an analytical tool known as 
the Removal Cooperation Initiative, or RCI. This tool is used 
to measure a country's cooperativeness with our repatriation 
efforts. Countries are assessed on a series of the following 
criteria: the average time it takes to issue travel documents, 
whether or not they allow ICE charter flights into their 
territory, and the ratio of removals versus releases for each 
country. This methodology was implemented last year and 
continues to be refined.
    It is important to note that while countries may generally 
be cooperative, sometimes they may delay or refuse the 
repatriation of certain individuals. For example, El Salvador, 
a country that is generally cooperative, has recently delayed 
the issuance of a number of travel documents where there is no 
legal impediment to removal. As a result, we've issued 19 Annex 
9 notifications to El Salvador and are working with Consular 
Affairs to raise this issue with El Salvador's Foreign 
Ministry. In sum, there are 23 countries we consider 
recalcitrant. In addition, we are also closely monitoring 62 
others.
    As you've heard, there's a variety of efforts that ICE, 
DHS, and the State Department use to deal with uncooperative 
countries, which are outlined in the memorandum of 
understanding between ICE and Consular Affairs signed in 2011. 
They include sending a letter from ICE to the nation's embassy 
requesting increased cooperation with the removal process, and 
so far this year we've issued 103 such letters, which is more 
than any other fiscal year; working with the State Department 
to issue a demarche or a diplomatic note to the recalcitrant 
country; and finally, joining the assistant secretary for 
Consular Affairs for face-to-face meetings with Ambassadors of 
uncooperative nations.
    Ultimately, a potential sanction could involve the 
Secretary of Homeland Security invoking 243(d) of the 
Immigration and Nationality Act. The use of visa sanctions must 
be weighed, however, in light of the potential impacts it could 
have on other foreign and domestic policy interests.
    We will continue to work closely with Consular Affairs to 
deal with uncooperative countries, and as a result, we have 
seen improvement in a number of countries. For example, in 
January of 2016 the Government of Somalia approved 37 nationals 
for removal, and to date, we've seen--received 29 travel 
documents from Somalia, the largest number in years. On April 
4, 2016, we had our first charter flight to India and removed 
54 Indian nationals. In June of 2016 we successfully conducted 
a charter flight to the Ivory Coast, Ghana, and Nigeria, and a 
total of 63 nationals were removed.
    Our enforcement efforts will continue to evolve, and we 
were constantly evaluating how best we can accomplish our 
mission. Without doubt, these efforts require the skillful and 
frequent negotiation with our foreign counterparts.
    We will also work closely with DHS and the Congress to 
ensure we have the resources that we needed. For example, we've 
been working very hard to see changes in our enforcement 
removal operations overtime compensation system to ensure our 
officers are available for duty as needed. We will continue to 
work with the Congress, DHS, and our label partners to fix this 
important issue.
    Thank you again for the opportunity to testify today and 
for your continued support to the men and women of ICE. I look 
forward to answering your questions.
    [Prepared statement of Mr. Ragsdale follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
    Chairman Chaffetz. Thank you. I will now recognize myself 
for 5 minutes.
    I want to put up a slide.
    [Slide.]
    Chairman Chaffetz. This is a document that we entered into 
the record, Weekly Departure and Detention Report: 953,507 
people, aliens with final orders of removal that remain in the 
United States without actually being deported. Is that right?
    Mr. Ragsdale. Sir, I believe that is a number that is an 
aggregate number over many, many years. It is on folks we 
consider under docket control that have seen either immigration 
judges or have filed Federal appeals on removal cases.
    Chairman Chaffetz. Okay. So let's define this. This is on 
page 2 of this report, okay? And it is the ERO post-final order 
docket. It is that many people that have been ordered by a 
judge at some level to leave the country to be deported and 
that are still in the United States.
    Mr. Ragsdale. I would again suggest those--that number 
includes people under docket control. Some of those people may 
have in fact withholding of removal or some protection from 
removal ----
    Chairman Chaffetz. I mean, it is your number so I am going 
to assume that it is true.
    Mr. Ragsdale. So I think it very well might be accurate, 
but what I'm suggesting is that number does not mean every 
single one of those people are amenable to removal as of right 
now. They may be granted ----
    Chairman Chaffetz. What do you mean amenable to removal?
    Mr. Ragsdale. In other words, someone who may be a country 
of some--let's just say Syria where they have a criminal record 
and could not get asylum, they still may be granted a different 
form of protection. They would be included in that number, but 
they may not be removed to Syria.
    Chairman Chaffetz. But they were ordered to leave the 
country, correct?
    Mr. Ragsdale. You--well, it's a little more complicated 
than that. You do get a removal order, but there is a 
restriction on where in the world you can be removed. So you 
may only be a citizen or national of Syria ----
    Chairman Chaffetz. The reality is they are in the United 
States, they are ordered by a judge to be removed from the 
country, and they haven't been yet, correct?
    Mr. Ragsdale. No. It's not quite that simple. So, in other 
words, you get a removal order, but we may not remove you to 
the country from where you're from.
    Chairman Chaffetz. But they are not in this country 
legally, they are ordered removed, so in your Syria example, 
then what do you do?
    Mr. Ragsdale. That is why they're included in that number 
and that is a ----
    Chairman Chaffetz. So you just let them stay in the United 
States?
    Mr. Ragsdale. Unless there is a third country we can remove 
them to.
    Chairman Chaffetz. Yes, they are here in the United States, 
and that is the problem.
    Did I hear you correctly? You said we do not release aliens 
we can remove?
    Mr. Ragsdale. That's exactly right.
    Chairman Chaffetz. Do want to say that again on the record 
really? You do not release aliens you can remove?
    Mr. Ragsdale. In cases where we have a final removal orders 
and a travel document, those people will be removed.
    Chairman Chaffetz. And a travel document?
    Mr. Ragsdale. Of course. It's a two-part process.
    Chairman Chaffetz. Okay. Let's go to the actual removal 
here. I'm going to take two case studies, okay, Ambassador? I 
want to look at Guinea and I want to look at Liberia, small 
numbers. And I guess I just don't understand why you haven't 
tried to do what the law says you have to do. We give Liberia 
$125 million in aid, $125 million. American people take out of 
their pockets and give to the country of Liberia. That is what 
we are going to do in 2016.
    They have, according to this document that I have from--
four noncriminal immigration violators, 52 convicted criminals, 
and from just this year alone there is another 29. Why not go 
back to Liberia and say, you know what, you are taking these 
people back or you are not getting any more visas? Why are you 
not doing that?
    Ms. Bond. Sir, we are meeting with the Liberians. We have 
met with their Ambassador here in Washington. I have met with 
senior officials in their capital. They have heard from our 
Ambassador. They have gotten the message very clearly ----
    Chairman Chaffetz. But they are not doing it, right? They 
are not doing it.
    Ms. Bond. And what we're seeing right now is that they are 
removing criminal aliens not at the rate yet that we want to 
see, but departures in July, departures promised in August, and 
a pledge that the rate will increase as we move into September. 
So it's ----
    Chairman Chaffetz. We have 52 ----
    Ms. Bond. They are not doing what we want to see, but what 
we are seeing is some slow movement toward where they need to 
be.
    Chairman Chaffetz. Okay. We have 52 Liberians, convicted 
criminals that are here illegally. The statute says you shall. 
There is no option. My guess is you would speed it up a whole 
lot--if it was up to me, yes, you would say no more visas, no 
more people coming to the United States, and that $125 million 
in aid, that check is going to sit here until you take these 52 
people back.
    Ms. Bond. So ----
    Chairman Chaffetz. You know what, your hand will be 
strengthened in your negotiations around the world if you do at 
every once in a while. This is law. This is not some Jason 
Chaffetz theory. This is the law, and I don't see you doing it 
at all in any country.
    Ms. Bond. I agree with you, sir, that the fact that we have 
that provision of the law and that there is the real 
possibility for any recalcitrant country to be facing visa 
sanctions or other sanctions is a very, very powerful tool and 
----
    Chairman Chaffetz. Use it. Use it.
    Ms. Bond.--what we're seeing ----
    Chairman Chaffetz. Pull the trigger.
    Ms. Bond. What we're seeing is, to take the case of 
Liberia, they do take this seriously, and they do understand 
that if we aren't seeing steady and increasing action on this 
issue ----
    Chairman Chaffetz. Why shouldn't they take them all? 
Steady, increasing, they are working with us. You have got 
criminal aliens, take them back. It is 52 people. But you know 
what, when one of those 52 people commits a crime, a rape, a 
murder, a DUI, that is on you because they shouldn't be here in 
the United States of America. You cannot look those people in 
the eye, Americans who pay their taxes, who work here, who are 
citizens. And you are so worried about playing nice instead of 
implementing the law. These people are committing more crimes. 
I just got through listing all these people, everything from 
murder to DUIs to sexual abuse. Get rid of them.
    Ms. Bond. Our goal is completely the same as yours. We want 
these people out of the country. We want ----
    Chairman Chaffetz. Then get them out. You have every tool 
at your disposal. You have got $125 million in aid. You have 
got the law on your side that says we do not need to give 
anybody else a visa, and you just tell them, somebody applies 
for the visa, we are not accepting those until you accept these 
52 people.
    Ms. Bond. All right. And in the process of getting a 
routine and efficient and swift process underway, that is what 
we're working on with Liberia and with these other countries.
    Chairman Chaffetz. It's not working.
    Ms. Bond. And they do understand that ----
    Chairman Chaffetz. I have made my point. I have gone past 
my time.
    Ms. Bond. Thank you.
    Chairman Chaffetz. Let me now recognize the ranking member 
Mr. Cummings.
    Mr. Cummings. I want to make sure we are clear, the list 
that the chairman is reading from, can you tell me about these 
crimes? He referred to Liberia and, I mean, a whole list of 
countries here. I don't know why he picked those two, but are 
these all serious crimes? I mean, I am just curious. Any crime 
is bad, but I am told it ranged from--do you know?
    Mr. Ragsdale. So I don't know in great specificity. There 
are a range of crimes. I mean, there is no question that, as 
Secretary Bond said, it is in our interest to remove every 
single person we can when the removal order is final and we 
have a travel document. So we are working very much towards the 
same goal.
    Mr. Cummings. You had said earlier, Mr. Ragsdale, something 
about some country may have a third country that would be 
willing to accept folks. How many third countries do we have 
like that?
    Mr. Ragsdale. It's going to depend on the person's 
individual circumstance. Dual nationality is something that 
happens with some frequency, so we certainly examine in a 
descending order that if there is a country of nationality or 
last habitual residence that we could possibly remove someone 
to who will accept them, our officers absolutely pursue that.
    Mr. Cummings. But let's put aside dual nationality. I mean, 
are there countries that seem to be more open to accepting 
these folks ----
    Mr. Ragsdale. It is very ----
    Mr. Cummings.--where their home country won't?
    Mr. Ragsdale. It's rare.
    Mr. Cummings. I see. Now, listing to testimony in April 
about the murder of Casey Chadwick, which was heartbreaking, I 
was disappointed to learn that ICE never alerted the State 
Department about the 6-month struggle to deport Jean Jacques, 
the person who was later released and then murdered Ms. 
Chadwick. State has a strong bilateral relationship with Haiti, 
and I would think State could have leveraged diplomatic 
relations to facilitate Mr. Jacques' removal. Why wasn't the 
State Department notified by Jean Jacques' case about it?
    Mr. Ragsdale. So, Ranking Member, I absolutely agree, it 
was a tragedy. And certainly having the IG look at this would 
certainly provide us some--with some things to think about and 
improve on.
    What I would say is working with Consular Affairs is 
something we probably should have done. However, we did work 
with our ERO and ICE officers in Santa Domingo, which cover the 
island of Hispaniola, and we did work with the State at post to 
try to get travel documents. So you are absolutely right that 
there are some things that we will look hard at in light of the 
Jean Jacques case, but I would also note that the IG found that 
while there could have been other things that ICE may have 
done, it may not have changed the outcome.
    Mr. Cummings. We need to learn from the example, would you 
agree?
    Mr. Ragsdale. Absolutely.
    Mr. Cummings. So in moving forward, a case involving 
someone with a violent criminal history and final orders of 
removal gets handled effectively and efficiently. So let me ask 
you this. How frequently does ICE alert State that it is 
struggling with an individual case of removal? I mean, does 
that happen often?
    Mr. Ragsdale. So we have monthly meetings between Consular 
Affairs and ICE, so there is a steady rhythm of not only 
correspondence but interaction on all of these cases. The--this 
is a symbiotic partnership that we are working very closely 
together. This is what produced the letters from the two 
Cabinet Secretaries. This is why we signed the MOU 5 years ago. 
This has been a--you know, a work in progress.
    Mr. Cummings. So what does that process look like? You sit 
down and you have a list? I mean, tell me about it real quick.
    Mr. Ragsdale. So, you know, as you can imagine, for 
effective border control we're talking about individuals. So, 
you mean, the idea and the idea of the tool that you mentioned, 
you know, we look at this with some degree of analysis for some 
broad trends. But every single case requires both a final 
removal order and a travel document. But we ----
    Mr. Cummings. So I understand then from ICE's enforcement 
and removal operations they must alert ERO headquarters at the 
75-day mark when they have not successfully repatriated a 
detainee. I also understand that most of ICE's communication 
with State about these countries comes from ERO headquarters. 
Mr. Ragsdale, do you have a manual or a clearly outlined 
guidance for your ERO field office agent so they know when they 
should reach out to State about an individual case?
    Mr. Ragsdale. So it actually is a hybrid approach. There 
are some field offices where there are consular officers from 
foreign governments located in that city. So in those cases our 
local office may work directly with a consular from that 
foreign government. And while they may notify headquarters, 
it's not necessarily something that headquarters will do for 
them. Absolutely, though, headquarters is the clearinghouse for 
our work with Consular Affairs, and we do do that work.
    And then lastly, we do have a manual that provides guidance 
to our field offices. That needs to be updated, and I think 
that's one of the things that we've seen out of the IG report.
    Mr. Cummings. Yes, I tell you that your responses don't 
instill a lot of confidence that a Jean Jacques won't slip 
through the cracks again.
    Mr. Ragsdale. I would say, you know, surprisingly that even 
if you look at the L.A. Times editorial on the Jean Jacques 
case, which, again, we often don't get what I'll say is a lot 
of balanced coverage in many papers, this was not a question of 
somebody not doing their job. This is a question of the Haitian 
Government not accepting someone who we believe was Haitian 
that they did not issue travel documents on.
    Mr. Cummings. All right. Okay. I understand the need for 
flexibility, but ICE needs to have a clearer guidance, would 
you agree, for when and how and whether to raise concerns about 
an individual case with State. What is ICE doing to provide 
clearer guidance? You know, what happens to--a lot of 
situations I find, an employee/employer, all kinds of 
relationships, there are expectations, but the expectations are 
never communicated and so you have got people assuming that 
other people are doing things, and then when the time comes for 
the rubber to meet the road, we discover there is no road.
    Mr. Ragsdale. Well, I--listen, I can certainly say with 
great confidence we would not have removed 235,000 individuals 
last year if our folks didn't know how to remove people. And I 
will also tell you there is no impact ----
    Mr. Cummings. Can we improve on guidance? I guess that is 
what I am trying to get to.
    Mr. Ragsdale. We--absolutely.
    Mr. Cummings. So ----
    Mr. Ragsdale. No question what to make sure that our 
officers know about every ----
    Mr. Cummings. How are you going to do that?
    Mr. Ragsdale. We are taking a look at revising that manual 
and providing additional training as necessary.
    Mr. Cummings. Assistant Secretary Bond, I just want to ask 
you a question or two. The ERO officers in Jean Jacques' case 
told the IG that they believed State would not get involved in 
an individual case unless the individual has committed acts of 
terrible human rights violations. Is that true?
    Ms. Bond. No, sir, that is not true.
    Mr. Cummings. What is true?
    Ms. Bond. What is true is that we work very, very closely 
with ERO. We know the staff there very well and they know us, 
and any request from them for us to take a look at a case to 
see if we could assist on a particularly difficult, intractable 
case, we would always respond.
    Mr. Cummings. Well, let me ask you this and ----
    Ms. Bond. And so the person who said that was mistaken to 
believe that we would not have been responsive.
    Mr. Cummings. This is my last question because I am running 
out of time. Do you believe that the State Department could be 
effective in using diplomatic engagement in individual cases 
where you have a removable individual with a violent criminal 
history?
    Ms. Bond. I think in every single case like that it's worth 
a try. I can't guarantee results in every case, but there is 
absolutely no reason why we wouldn't and shouldn't be engaging 
and bringing--especially in a case like this one where you're 
talking about a murderer--to bring the case to the attention of 
the government and say ----
    Mr. Cummings. Well ----
    Ms. Bond.--let's find a way to fix this.
    Mr. Cummings. I just want to tell you I think we can do 
better, and I think we need to go back again and try to figure 
out how again to be more effective and efficient in what we are 
doing. We can do better.
    With that, I yield back, Mr. Chairman.
    Chairman Chaffetz. Thank you. As I recognize Congressman 
DeSantis here, I would just like to request the A files if I 
could. And not to pick on any particular country, but the 
numbers are small enough that it seems doable. But there were 
seven convicted criminals who were nationals of Guinea who were 
released from ICE under Zadvydas. In 2015, an additional 20 
convicted criminals from Guinea were released under Zadvydas. 
Thus far this year 29 criminal aliens from Liberia were 
released under Zadvydas, as were an additional 52 criminals 
from Liberia last year.
    To assist the committee in understanding the nature of the 
offenses involved in these cases, we would appreciate it if you 
would provide to the committee, Mr. Ragsdale, within, say, 30 
days of this hearing the so-called A files for those aliens. 
Can we achieve that?
    Mr. Ragsdale. I--we will certainly make every effort to 
meet that deadline.
    Chairman Chaffetz. Okay. And, Mr. Cummings, if he wants to 
add another country or two to get a cross-section, we are not 
trying to pick on any particular one, but I think it would 
provide--and we will follow up if there is additional ----
    Mr. Cummings. Yes, Mr. Chairman, I am so glad you said that 
because I would like to add a country or two, but I will let 
you know. I want to study this list ----
    Chairman Chaffetz. Well, we will follow up ----
    Mr. Cummings.--a little bit more.
    Chairman Chaffetz.--and I picked two at random. We will let 
Mr. Cummings pick whatever he would like. And if you could help 
us with the A files on those, that would be appreciated.
    Mr. Ragsdale. Yes, sir.
    Chairman Chaffetz. Thank you. I would now like to recognize 
the gentleman from Florida, Mr. DeSantis, for 5 minutes.
    Mr. DeSantis. Thank you, Mr. Chairman.
    Mr. Ragsdale, it is frustrating to hear your responses 
about the Casey Chadwick murder. I mean, Jean Jacques came here 
illegally from Haiti in the '90s, was convicted of attempted 
murder, served 17 years in prison, obviously had no right to be 
here, was released first after serving a sentence and was not 
deported. And within a few months after being turned loose on 
the public, he murdered Casey Chadwick and stuffed her body in 
a closet. This is not something that should be acceptable.
    Now, you said maybe nothing could have been done, the IG 
said. I don't accept that. I mean, you are saying you can't 
even get a travel document in 5 months?
    Mr. Ragsdale. So I don't think that's exactly what I said. 
What I said, the IG found that we certainly could have done 
different things but the outcome may not have changed. We went 
to the Haitian Government with a request for a travel document 
for Jean Jacques. They said he could not prove he was of 
Haitian nationality, and they refused to issue. It's very ----
    Mr. DeSantis. Is that true? Could you prove it?
    Mr. Ragsdale. We believe he is Haitian, but I will also 
tell you that it certainly could be the situation--I'm not 
saying it is in this case--but someone of Haitian decent born 
in the Dominican Republic would present every--much as ----
    Mr. DeSantis. Did you try with the Dominican Republic?
    Mr. Ragsdale. Well, as you know, there's been some 
challenges between the Dominican Republic and Haiti in terms of 
nationality concerns. So we did not try to remove him to the 
Dominican Republic.
    My point is simply this: We made efforts, and there's no 
question we will look at the IG's report and take every best 
practice and every ----
    Mr. DeSantis. But you didn't ----
    Mr. Ragsdale.--potential solution.
    Mr. DeSantis.--go to the State Department and say Haiti is 
not being cooperative here, and you didn't seek them to notify 
them under section 243 delta, correct?
    Mr. Ragsdale. ICE does not have authority to issue 
sanctions under 243(d) ----
    Mr. DeSantis. No, no, no, no, no. I know that. What happens 
is when the Department of Homeland Security notifies the State 
Department when the statute was--when it was Attorney General. 
Now since we have had changes in agencies, it is now the 
Department of--once that notification is made, then that 
triggers their duties. And my point is you guys did not issue a 
notification that Haiti was being unreasonable in this case.
    Mr. Ragsdale. That's right. And what I will suggest to you 
----
    Mr. DeSantis. And had you done that, maybe there would have 
been a different outcome.
    Mr. Ragsdale. Perhaps. That is absolutely true. What I will 
say is we did work with the State Department at post in Santo 
Domingo ----
    Mr. DeSantis. I know, but that--clearly, that is--I mean, I 
appreciate that but that is going kind of the midlevel of the 
bureaucracy. If the government itself is not going to be 
cooperative, we have certain tools that can be used, and this 
is one of the tools that, if it was used, we may have had a 
different outcome. And I think that it is not unreasonable to 
say that if someone comes to the country illegally and then 
gets convicted of attempted murder, then it should be a very 
high priority of the government to get that person out of our 
country because of the high likelihood that they are probably 
going to reoffend when they go back in.
    And I am also frustrated because Casey's mother Wendy 
Hartling, she said very recently that she has not received any 
answers from ICE, that your agency has not been very helpful 
with helping her get her head around what happened. Why is 
that?
    Mr. Ragsdale. I am not familiar with us not providing her 
information as much as we can under the law. I will certainly 
take that back and find out if we have a pending inquiry from 
her. But ----
    Mr. DeSantis. Let me ask you this. How many times in the 
last 7 years has DHS actually done a notification for State 
under section 243 delta? Have there been any?
    Mr. Ragsdale. I do not believe we've done it at all.
    Mr. DeSantis. Okay.
    Mr. Ragsdale. But I would note, though, again, that we 
signed the MOU 5 years ago, you've seen the correspondence from 
Secretary Johnson to Secretary Kerry and the response. The 
Secretary, in front of Senate Judiciary last week, you know, 
noted that this is on his radar. So it is not from our lack of 
interest in raising recalcitrant countries ----
    Mr. DeSantis. Well ----
    Mr. Ragsdale.--as appropriate.
    Mr. DeSantis.--right, but we have tools and we want to use, 
and what we have is we get these reports--you guys give us the 
reports--the number of people here illegally, and you actually 
enumerate the crimes that they committed. And so these are 
people that have been in ICE custody and yet they end up 
committing crimes. And it is varied. It varies from murder, it 
varies from things like theft and robbery, DUI. I would say all 
those are menaces to the public in obviously varying degrees. 
And so that is there.
    Let me ask you this, Ambassador Bond. You said in your 
testimony that State has and will implement visa restrictions 
when necessary, but you wanted to make sure that was the right 
approach depending on the circumstances. But doesn't the 
statute mandate that if you do receive that notification from 
the Department of Homeland Security that you are required to 
suspend visa issuances?
    Ms. Bond. Yes, it does.
    Mr. DeSantis. Okay. And just to make sure it is consistent 
with what Mr. Ragsdale says, has the State Department received 
any notification from DHS over the last 7 years under that 
section?
    Ms. Bond. We have not received the formal message from the 
Secretary of Homeland Security directing that this be 
triggered.
    Mr. DeSantis. Okay. So here is the thing. We have tools 
that Congress has legislated. I think you guys need to use 
them. And obviously it goes to the Department of Homeland 
Security first because that really triggers your responsibility 
at State. But those are what Congress did. I think it would be 
tremendously effective if you did it. I think the countries 
would be very much more likely to fall in line. You would be 
using leverage, and I think we could engineer better outcomes 
for the American people.
    But clearly, law enforcement--I wish we could prevent every 
single crime that happens here. The fact of the matter is 
people are going to commit crimes; you have got to hold them 
accountable. But when people are here illegally and they have 
actually been convicted of crimes and then they are released 
rather than being deported, well, that is on the government and 
that is something that could be prevented. And I think people 
like Casey Chadwick, these tragic stories need to come to an 
end.
    And I yield back.
    Mr. Russell. The gentleman's time has expired.
    The chair now recognizes the gentleman from Massachusetts, 
Mr. Lynch, for 5 minutes.
    Mr. Lynch. Thank you, Mr. Chairman. I thank the witnesses 
for being here.
    You know, too often, the wider discussion in Congress about 
immigration ends up in a shouting match between what I would 
loosely describe as the open-borders crowd against the throw-
them-all-out crowd, those extreme ends of this debate. This 
does not help. This does not help. When you have got 86,000 
criminals here illegally being released into the general 
population, you have got situations like Ms. Chadwick, you 
know, and my heart goes out to their families. I cannot imagine 
the anguish that they have gone through and they are still 
looking to have their questions answered.
    You know, we have a very basic duty in this country to 
protect the people, to protect the American people. And, you 
know, cases like Ms. Chadwick just infuriate, infuriate the 
American people, and rightly so. And it looks like we can't get 
our act together here. You know, I understand, you know, that 
ICE didn't notify the State Department about its difficulty in 
obtaining travel documents for Mr. Jacques, is that right?
    Mr. Ragsdale. It is correct that we did not notify ----
    Mr. Lynch. Okay. So ----
    Mr. Ragsdale.--Consular Affairs on that particular case.
    Mr. Lynch.--it is not just about the one case, but this is 
not helping. And, you know, you got people that just see a case 
like that and say that is it, no more immigration. We are not 
going to have that. We have got to keep our people safe. It 
informs their opinion of what is going on here. It also informs 
their opinion of the job that the government is doing to keep 
them safe. It is pathetic because, you know, if we are going to 
have a--and we need a coherent, a robust, a sane, a sustainable 
immigration policy, and we are never going to get there if you 
keep doing things the way you are doing it.
    We have to at some point at least acknowledge that we 
should not allow foreign countries to import dangerous 
criminals to our country. There is a cost-shifting there that 
is put on the American taxpayer, and there is also a perverse 
incentive for those countries to do that because they can get 
rid of their problems by sending them to us, you know?
    I want to explore something that you mentioned, Mr. 
Ragsdale. You know, we have got a situation in Germany where 
they ended up with 1.4 million Syrians and refugees from other 
countries, and so they have worked out an agreement with Turkey 
on deporting a certain number of those people. And there is 
sort of a third-party agreement, like you talked about. Are 
there any countries like that that we can deal with where 
people come in illegally--and, you know, unfortunately we are 
at this point because of the logjam we have got here. I think 
that that solution of just telling people we are not going to 
accept any more visas until you take these people back.
    And by the way, I would like a list. I would like a list of 
the countries that are recalcitrant. I want to know how many 
people they are refusing to take. And I think that is 
information that Congress should have when we make foreign 
appropriations because we can zero out foreign aid to countries 
that don't cooperate.
    If you are not going to do it at your level, I know there 
are Members of Congress who will embrace that duty if it not 
being done. And I bet you we will get great response. If we cut 
off funding to countries that are not doing the right thing and 
not taking back criminals from their own countries who are here 
illegally, I think in a heartbeat they will respond to that. 
And unfortunately, it looks like that--it is a blunt tool and I 
don't like it, but if it is, you know, the only tool in the 
toolbox, then I guess we have got to use it. Tell me about 
third-country agreements, Mr. Ragsdale.
    Mr. Ragsdale. Well, I do not think in the United States at 
the moment has the type of program you are talking about with 
the EU and Turkey. However, DHS has worked with some in-country 
processing in Central America where we are looking to find 
refugees in the tri-border area as opposed to having them make 
an illegal trip north.
    And then from the investigative side, we have worked to 
dismantle the transnational criminal organizations that are 
bringing folks from our southern neighbors to the United States 
illegally. So I mean there is much work that is getting done on 
both fronts. We are not simply in a completely defensive 
posture.
    However, once people get to the United States and the law--
the Immigration and Nationality Act allows people to apply for 
protection when they are here, they have to go through the 
entire process. And if they are unsuccessful, we will have to 
go back to that country to get a travel document for them to 
remove them.
    Mr. Lynch. Okay. So can we make an agreement here that this 
committee, Oversight, is going to get notice of when you have 
got a removal order and you are requesting travel documents? We 
just need to know that. You know, since it is a two-step 
process, we need to know when both of those happen.
    Mr. Ragsdale. Yes, but so I understand, for which--I mean, 
there's 23 recalcitrant countries that are--that we are 
monitoring.
    Mr. Lynch. Okay.
    Mr. Ragsdale. I mean, I'm happy to provide the data 
associated with that.
    Mr. Lynch. Yes. How about we just work with those 23 
countries, and that would be a good start.
    Mr. Ragsdale. Yes, sir.
    Mr. Lynch. Thank you. I yield back.
    Mr. Russell. The gentleman yields back. The chair now 
recognizes the gentleman from Georgia, Mr. Hice, for 5 minutes.
    Mr. Hice. Thank you, Mr. Chairman.
    It looks to me like we have got frankly a double failure of 
our government. On the one hand, we have got the State 
Department failing to force nations to accept their own 
citizens back who are criminals here in our country; and then 
secondly, we have got the Homeland Security failing to notify 
local law enforcement when these individuals are released into 
our streets.
    And, you know, all of this just puts the American public at 
risk. When it all comes down to it, that is what is going on 
here, which is absolutely unacceptable to me and to millions of 
Americans, probably everyone in here. And our job is to keep 
the public safe, and we are not doing it here.
    Let me kind of walk through the process. Let's just say an 
individual who is illegally in this country commits a sex 
offense in this country, gets convicted, serves time, then gets 
turned over to ICE to be deported except ICE cannot deport them 
because their country of origin does not want to accept them. 
So at that point we have an individual who is released back on 
our streets.
    Now, as already has been discussed, we have a solution 
here, and that is to deny visas from these countries until 
these countries accept back their citizens who have committed 
crimes in our country. It doesn't seem to me frankly to be 
rocket science. We could fix this problem relatively quickly if 
we would just abide by the law that we have to work with. We 
have the tools on hand it seems to me. And this is the method 
that Congress has created, and yet it is not being utilized. 
So, again, this putting the American people at risk.
    Now, let me go back to the example here. Let's just say we 
have a sex offender. Let's look at it from two perspectives. On 
the one hand we have an American citizen who commits a sex 
crime. They serve their time, they are released at some point. 
When they are released, local law enforcement is notified that 
they are released, and they are placed on a national sex 
offender registry so we know who they are, where they are 
located. Law enforcement and communities are aware. That is for 
an American citizen.
    Now, we have someone who is illegally in this country who 
commits the same type of sex crime. They serve their sentence, 
turned over to ICE. ICE can do nothing with them so they are 
released. Local law enforcement is not informed, community is 
not informed. We have the same type of sex offender running 
around, no one knows who they are, where they are. There is no 
follow-up on them. And ICE does not have the requirement to 
make sure these individuals are placed on the sex offender 
registry, and so they are not. And this has been problematic.
    I actually have introduced a bill that would require ICE to 
place these people on the national sex offender registry when 
they are released. It is H.R. 2793, the TRAC Act. I would 
encourage everyone to jump on board with that.
    Mr. Ragsdale, let me just ask you, does the fact that ICE 
is not required to place these individuals on the national sex 
offender registry, does that mean that you cannot place them on 
that registry?
    Mr. Ragsdale. So, generally, the prosecuting agency, the 
State or the local--the municipality does not make a 
distinction between the person's nationality and would place 
them on their sex offender registry.
    Mr. Hice. They are not placed on there.
    Mr. Ragsdale. That is up to the law of the prosecuting 
municipality. But more importantly, what we have done over the 
last 2 years is create a system that every time we release a 
criminal alien from our custody, we, in an automated fashion, 
notify the jurisdiction to--where that person will be released. 
It's called the LENS system.
    Mr. Hice. That is not happening.
    Mr. Ragsdale. It is the Law Enforcement Notification 
system, sir. I would be happy to get you a briefing on that.
    Mr. Hice. Listen, I deal with all the sheriffs in my 
district. Georgia has not--that is not happening. You may think 
it is happening, but it is not occurring.
    Mr. Ragsdale. We were just at the National Sheriffs 
association talking to folks about this. This is done by what 
they call ORI code. It's done biometrically based on the 
arresting agency's fingerprints. So I'd be happy to get you a 
brief on what we've done. We've made great progress in this 
area to notify local law enforcement every time someone is 
getting released from ICE custody who has a criminal history.
    Mr. Hice. The sex offenders are not being placed on the 
national sex offender registry.
    Mr. Ragsdale. ICE ----
    Mr. Hice. They are being released. Local law enforcement 
are not aware of these individuals, communities are not aware 
of these individuals, and you ought to take responsibility to 
make sure that they are registered at least.
    Mr. Ragsdale. We would be happy to work with you on this. I 
think obviously information-sharing in law enforcement is of 
critical import and can only benefit the American public.
    Mr. Hice. Absolutely ----
    Mr. Ragsdale. I completely agree.
    Mr. Hice.--and it is not occurring.
    Mr. Ragsdale. I'd be happy to get you a brief ----
    Mr. Hice. Mr. Chairman ----
    Mr. Ragsdale.--on what we've done ----
    Mr. Hice.--I see my time is expired.
    Mr. Ragsdale.--over the last 2 years.
    Mr. Russell. The gentleman yields back.
    The chair now recognizes the gentleman from California, Mr. 
Lieu, for 5 minutes.
    Mr. Lieu. Thank you, Mr. Chair.
    The United States of America is the world's premier 
superpower. I find it absurd that we cannot return foreign 
nationals that have been convicted of heinous crimes back to 
their home country.
    The case of Jean Jacques, the Haitian foreign national, it 
is stories like that I agree with Congressman Lynch that makes 
it hard for those of us who want to support comprehensive 
immigration reform to get that through because it is these 
stories that make the American people very angry and just make 
our country want to shut down in terms of immigration.
    And as you know, in that case Jean Jacques was convicted of 
attempted murder, served his time, released, and then ICE tried 
to get him back to Haiti, the Haitian Government refused to 
accept him. He then kills Casey Chadwick.
    It is clear to me ICE should have notified the State 
Department. That was a failure. But I find it much more 
disturbing the reason ICE did not do this. And in this New York 
Times article in July, I am going to give you the reason. ICE 
officials say that they did not raise the case with the State 
Department because they did not believe it would intervene to 
encourage a foreign country to accept a violent offender like 
Jacques.
    So what this is telling me is that one entire agency of the 
Federal Government, ICE, believes the State Department is so 
weak, so incompetent on this issue that they don't think it is 
worth their time to notify the State Department.
    So I am going to ask you some questions, Ms. Bond. Thank 
you for being here. Why would ICE think that? And I am thinking 
maybe it is because the State Department has only one time in 
its entire history used the tool Congress gave you to deny 
visas to these countries. Why is it that you have only done it 
one time?
    Ms. Bond. You asked why would they believe that we wouldn't 
intervene and assist unless it was a case that involved 
terrorism?
    Mr. Lieu. Yes, I did ask two questions. That is the first 
question. The second is why is it that only one time you have 
used the tool that Congress gave you? So there are two 
questions there.
    Ms. Bond. I cannot account for the fact that somebody 
believed that because the fact is that we work so closely. We 
are very much a team in terms of looking for ways to support 
each other. ICE has the lead so we are in the supporting, but 
we are working together as effectively as possible on 
individual cases. So why someone would've had the idea that we 
wouldn't be responsive I simply don't know why they thought 
that. We would have been responsive. And ----
    Mr. Lieu. Would you have denied visas?
    Ms. Bond. So the question about, you know, why is there 
only one example to date of actually applying this particular 
case, excuse me, I think it's--in the case of Guyana--and we 
agree that it was very effective and we also agree that this is 
an important tool. We keep it in consideration at all times. It 
is not something that we're looking for reasons not to do.
    Mr. Lieu. I think ----
    Ms. Bond. In the case of Guyana ----
    Mr. Lieu.--the sentiment of this committee on a bipartisan 
basis is that you are actually not looking to do it, and I 
think what we want is we want you to do it. We want you to make 
an example of a country that is recalcitrant. Just do it, and 
then hopefully others will listen more, right? We should make 
no apologies for acting like a superpower. We should use the 
tools that the Congress has given you and just do it.
    So let's now move to foreign aid, right? It is true, isn't 
it, that the U.S. is the largest foreign aid donor since 1973 
to Haiti?
    Ms. Bond. I'm sorry. What was the question?
    Mr. Lieu. Is it true that the U.S. is the largest foreign 
aid donor to Haiti since 1973 or about then?
    Ms. Bond. That's probably true. I don't know, but I believe 
----
    Mr. Lieu. So I understand that we have sovereign nations 
and Haiti doesn't have to take back its folks that commit 
crimes, but we also don't have to give foreign aid. And would 
you support reducing or eliminating foreign aid to Haiti 
because they are unwilling to take back their own murderers?
    Ms. Bond. You know, in the case of Haiti, that is a country 
that is not on the list of recalcitrants. They are generally 
cooperative. They are not a country that is problematic in that 
sense. It's not typical for them to be saying in the case of 
particular individuals we don't think this person is Haitian. 
So that is an example of a situation that you have to keep 
trying to work with that government, but it's not a sign that 
you have a government that is ----
    Mr. Lieu. So let me just stop you there.
    Ms. Bond.--deliberately saying ----
    Mr. Lieu. The U.S. Government clearly believed he was 
Haitian, right? And, you know, it is discretionary whether they 
want to take back their person. It is also discretionary for us 
whether we want to give foreign aid. So it should be the view 
that if our government believes a fact and we want to send that 
person back based on these facts and the host country doesn't 
take it, I think this committee wants the State Department to 
do some action, right, because I think it is our view that 
diplomacy, without the threat of consequences, is meaningless. 
It is just happy talk. We want you to put in some consequences. 
We want you to do that soon.
    And my time is up. I yield back.
    Ms. Bond. Thank you.
    Mr. Russell. The gentleman yields back.
    The chair now recognizes the gentleman from Wisconsin, Mr. 
Grothman, for 5 minutes.
    Mr. Grothman. Yes. Mr. Ragsdale, first question for you. 
When did you get your position as deputy director of 
Immigration and Customs?
    Mr. Ragsdale. Since June of 2012.
    Mr. Grothman. June of 2012. Okay. And, Ambassador Bond, 
your position previous to being the assistant secretary was--
did I read that you are a former Ambassador to an African 
country?
    Ms. Bond. Yes, immediately prior to becoming the assistant 
secretary, I was the deputy principal assistant secretary, the 
number two in the Bureau. And before that I was the Ambassador 
in Lesotho in southern Africa.
    Mr. Grothman. And when were appointed to that?
    Ms. Bond. I'm sorry, when was I ----
    Mr. Grothman. When were you appointed to the Ambassador of 
Lesotho?
    Ms. Bond. I was there from 2010 to 2012.
    Mr. Grothman. Okay. So you are both, I am sure--Ambassador 
Bond, you are an appointee of President Obama, correct?
    Ms. Bond. To this job, yes.
    Mr. Grothman. Yes, and the Ambassador job was ----
    Ms. Bond. That was also during the Obama administration.
    Mr. Grothman. Correct. And I am not sure. Mr. Ragsdale, is 
your position an appointed one by President Obama?
    Mr. Ragsdale. No, I am a career ----
    Mr. Grothman. You are career?
    Mr. Ragsdale.--senior executive, yes.
    Mr. Grothman. Is there a political determination of who the 
deputy director is or not?
    Mr. Ragsdale. No, it is a career job.
    Mr. Grothman. Okay. Well, we will focus on you, Ambassador 
Bond. I mean, you know, there is something going on in the 
background here we are not talking about, but I would like to 
talk about it. You have been appointed in this position by 
President Obama, and there has been a theme, I think, through a 
variety of hearings we have had in which there doesn't seem a 
lot of sincerity in enforcing our immigration laws at all 
around here, whether it is people just coming across the border 
and letting to go back, whether it is not deporting people who 
commit crimes, whatever. To what degree do you believe 
President Obama is aware that you folks are not using the means 
at your disposal to remove the dangerous criminals back to the 
countries from which they came? Does President Obama know about 
this at all? Do you guys report to him? Have you heard anything 
from the White House about your horrible ----
    Ms. Bond. There have been instances where the President has 
raised the issue with his counterpart, the head of other 
countries, and so I know that he's aware of the issue of the 
task of dealing with recalcitrant countries and looking for 
ways to get them to meet their obligations ----
    Mr. Grothman. But those ways haven't included denying visas 
or trying to prevent foreign aid from going to these countries? 
President Obama is aware of this and he still--I guess what you 
are saying is President Obama then is aware of this situation, 
right?
    Ms. Bond. President Obama is aware of the fact that some 
countries are not meeting their obligations to cooperate in 
removing their citizens.
    Mr. Grothman. And has he weighed in with you guys at all to 
say let's withhold foreign aid, let's withhold visas from these 
countries or is he just kind of chit-chat, talk, talk, talk and 
not doing anything about it?
    Ms. Bond. So actions that have been taken include a fairly 
recent--about a year ago a message from the deputy Secretary of 
State to every Ambassador telling them to raise this, 
particularly in the cases where we're not seeing ----
    Mr. Grothman. Raise what?
    Ms. Bond. Raise the question of the importance of resolving 
issues of ----
    Mr. Grothman. About a year ago?
    Ms. Bond.--returning citizens ----
    Mr. Grothman. So about a year ago somebody said we ought to 
raise the issue. But has he ever threatened or has President 
Obama ever come down on you guys in saying, hey, we have a 
bunch of criminals in this country, we have the ability to deny 
visas, we have the ability to withhold foreign aid, let's do 
something about it? Or is President Obama just--all you can 
come across is a year ago he said, well, maybe we ought to look 
at this sometime and see what we can do?
    Ms. Bond. Maybe we ought to look at this sometime is not 
the message that was sent.
    Mr. Grothman. What was the message?
    Ms. Bond. The message was to raise the visibility and to 
emphasize the importance of resolving these cases where they 
occur. And we completely agree with you and other members of 
this committee ----
    Mr. Grothman. I don't think you ----
    Ms. Bond.--that taking the actions, including visas 
sanctions, are--that is a real deterrent and it is a real 
threat.
    Mr. Grothman. Has ----
    Ms. Bond. But what we've seen ----
    Mr. Grothman. Well, talk about threats. Has President Obama 
threatened with removing any of those appointees who haven't 
followed through on this?
    Ms. Bond. I--you know, what we ----
    Mr. Grothman. I mean, I didn't vote for the guy.
    Ms. Bond.--are doing is working to make sure that we 
establish a process with every single country, focus on the 
ones that are not doing the job ----
    Mr. Grothman. But does the process ----
    Ms. Bond.--that will work.
    Mr. Grothman. We only get 5 minutes here. Does the process 
include withholding foreign aid or withholding visas?
    Ms. Bond. The process includes that possibility, 
absolutely.
    Mr. Grothman. Has it ever happened ----
    Ms. Bond. It ----
    Mr. Grothman.--under your tenure?
    Ms. Bond. It has happened that we have talked to 
governments and said if we're not seeing results ----
    Mr. Grothman. Okay. So it has never happened, right, under 
your ----
    Ms. Bond. It has not been imposed but it has been 
discussed, and countries know that they are on the line.
    Mr. Grothman. Okay. Well, we only got about, what, 5 months 
to go on this administration. If he is going to impose it, he 
better do it quickly, and otherwise, I think the American 
people have to, you know, make sure the next President has an 
entirely different view of things. But thanks much.
    Mr. Russell. The gentleman yields back. The chair now 
recognizes the gentlelady from the Virgin Islands, Ms. 
Plaskett.
    Ms. Plaskett. Thank you, Mr. Chairman.
    Ambassador Bond or Mr. Ragsdale, before my colleague leaves 
I understand that one of these statutes was previously invoked 
with Guyana in 2001. Mr. Ragsdale, do you know if that is 
correct?
    Mr. Ragsdale. That is my understanding.
    Ms. Plaskett. And at the time that it was invoked with 
Guyana, what were the problems that our government was facing 
with Guyana in deporting individuals there?
    Mr. Ragsdale. This was during the days of the Immigration 
and Naturalization Service, which was part of the Department of 
Justice ----
    Ms. Plaskett. Right.
    Mr. Ragsdale.--so I cannot speak from personal knowledge, 
but I understand there was a delay in repatriations to Guyana, 
and we worked--at that time the Immigration and Naturalization 
Service worked with the Department of State to have visa 
sanction imposed.
    Ms. Plaskett. And was that an effective use of the statute?
    Mr. Ragsdale. I understand that it was.
    Ms. Plaskett. So we have used it in the past?
    Mr. Ragsdale. I understand that is the last time it has 
been used.
    Ms. Plaskett. And that was section 243(d) of the 
Immigration and Nationality Act, which allows for the Secretary 
of Homeland Security to formally notify the Secretary of State 
that a foreign government is denying or unreasonably delaying 
the acceptance of their deportees? Is that correct?
    Mr. Ragsdale. That is what the statute says.
    Ms. Plaskett. And why has the statute allowed it to remain 
at a Cabinet level with the Secretary of State requiring it to 
discontinue immigration or non-immigration visa status as 
opposed to Members of Congress who don't like a particular 
administration and want to impose that on other states?
    Mr. Ragsdale. If I understand, I mean, the statutory 
language actually reads ``Attorney General,'' as folks have 
mentioned. At this point, that now is read to be the Secretary 
of Homeland Security, but the legislation itself grants that 
authority to that Cabinet-level position.
    Ms. Plaskett. And that is legislation that this Congress 
has given and found in putting that law in place that it was 
best to be left with the Secretary of State, with the Attorney 
General, and at a Cabinet level as opposed to Oversight and 
Government Reform Committee when they don't like how a 
particular administration is operating its visa and immigration 
status? Yes?
    Mr. Ragsdale. That's my understanding of the way the ----
    Ms. Plaskett. Okay.
    Mr. Ragsdale.--statute reads.
    Ms. Plaskett. So it was effective in the use of Guyana. 
Could I ask you, Secretary Bond, is it possible--how would this 
affect--if we were to do something like this with a place like 
China, what would be the effect on our own economy if we were 
to impose something like this?
    Ms. Bond. If you take a particular country, in any case 
you're going to be looking to see what would be the likely 
effectiveness of taking the step of, for example, sanctioning 
them on visas ----
    Ms. Plaskett. Okay. So I guess let me be ----
    Ms. Bond.--and what would be the cost ----
    Ms. Plaskett.--a little more specific. I am asking--so if 
we decided that we were going to revoke the ability of China to 
have immigration visas in this country because they were 
recalcitrant about returning one or two or three individuals 
back to China, what would the effect on a regular basis be of 
China not being allowed immigration visas into this country, 
work or otherwise visas?
    Ms. Bond. This is obviously a hypothetical question.
    Ms. Plaskett. Of course.
    Ms. Bond. The likely response ----
    Ms. Plaskett. It hasn't happened.
    Ms. Bond.--of any government, one response would be that 
they would reciprocate. It would ----
    Ms. Plaskett. Impose the same things on us, right? And the 
economy, the work that is done between China and the United 
States is how many visas a year would you say in terms of work 
visas going back and forth between the Chinese nationals and 
Americans into china?
    Ms. Bond. I don't have that breakdown, but it's well over a 
million-and-a-half visas that are issued.
    Ms. Plaskett. Would that also affect American adoptions of 
Chinese children?
    Ms. Bond. It's impossible to predict what a foreign 
government might decide to do in response, and important to 
remember that the purpose of doing it would be to get them to 
change what they're doing on removing their aliens. We want to 
focus on that. We would be looking for measures we can take 
that are likely to steer them in that direction not to trigger 
retaliation where we then end up arguing about visas and not 
making any progress on removals.
    Ms. Plaskett. Okay. Thank you. I have no further questions 
at this time.
    Ms. Bond. Sir, if I may just quickly correct the record --
--
    Mr. Russell. Yes, please.
    Ms. Bond.--to make it clear that I'm ----
    Mr. Russell. You bet you.
    Ms. Bond.--also a career member of the government, a career 
foreign service officer in addition to being politically 
appointed to this particular job. Thank you.
    Mr. Russell. And let the record note. The gentlelady has 
yielded back and the chair now recognizes the gentleman from 
Alabama, Mr. Palmer, for 5 minutes.
    Mr. Palmer. Thank you, Mr. Chairman.
    Ambassador Bond, you stated in your testimony that some 
recalcitrant countries like China wouldn't be largely affected 
via sanctions because they control foreign travel of their 
citizens. A recent GAO report this year found that the United 
States is the largest source of remittances in the world, in 
fact, 54.2 billion abroad in 2014. Mexico, China, India, the 
Philippines received the most money from us. But I notice many 
of the countries who received significant remittances from us 
are also the same ones who refuse to repatriate citizens who 
commit crimes on U.S. soil.
    If the State Department's highest priority is the 
protection of U.S. citizens, why shouldn't we block remittances 
to these countries?
    Ms. Bond. Sir, some of the countries that you mentioned are 
not countries that have been recalcitrant or have been a 
problem in this particular ----
    Mr. Palmer. I understand that.
    Ms. Bond.--issue.
    Mr. Palmer. I just ----
    Ms. Bond. Our goal in dealing with each of the countries 
that are designated recalcitrant, as well as those that are on 
a list that we're watching and working with to make sure that 
their performance doesn't get worse, our goal is to look for 
ways to incentivize them to do what they need to do and to 
establish a process that routinely works.
    We agree that the possibility of visa sanction can be an 
effective tool. I would argue that part of what makes it 
effective is that when it's imposed, it's very clear to the 
other country, very clear to anyone who's looking at the 
situation that we did our best to find a way to resolve that 
problem without going to that step and that they left us no 
choice. We were not seeing cooperation, we were not seeing 
response, and therefore, we took that step.
    Where we're seeing a response, where we're seeing a step in 
the right direction and movement in the right direction and 
commitment to keep that going, we push to keep that going and 
----
    Mr. Palmer. I appreciate all of that ----
    Ms. Bond.--that's the approach.
    Mr. Palmer.--but let me--this just seems to--this is 
problematic for me. We have talked about the cases where people 
who had been arrested multiple times have committed crimes that 
resulted in the deaths of their victims, okay. That is an 
enormous cost. But if you take into account--and this has 
happened in my home State of Alabama where our local law 
enforcement have arrested people multiple times. It goes on all 
around the country where people are here illegally and the 
United States has not been able to repatriate them to their 
countries of origin, have committed other crimes. There is an 
enormous cost there that the taxpayers are paying, in some 
cases the victims, and I guess in every case the victim of the 
crime is paying, yet we are sending $54 billion. I mean, 
doesn't it make sense to at least deduct the cost?
    And, I mean, it is across the board with the whole issue of 
this administration allowing illegals to come into the country 
and we are taking care of them, we are paying for it, the 
taxpayers are paying for it. If we can't get the administration 
to at least recognize that, can we at least get the 
administration to recognize that we are paying an enormous cost 
for the crimes that are being committed and deduct that from 
the remittances? Doesn't that make sense?
    Ms. Bond. We absolutely recognize the cost in terms of ----
    Mr. Palmer. But you are not doing anything about it.
    Ms. Bond.--the cost of detention and the penalty paid by 
victims of folks, and that is why this is a priority and we are 
looking for effective and more and more effective ways to 
address this.
    We do have examples of countries where we have been 
successful, where we've been working with them and they are not 
on the recalcitrant list. So this is not a static list.
    Mr. Palmer. But there are countries who are persistent, and 
all I am saying is in that case where we are making remittances 
doesn't it make sense to at least deduct the cost, maybe even 
compensate the victims? I mean, doesn't that make sense?
    Ms. Bond. So the option of eventually taking a look at 
having the foreign assistance that we provide to a foreign 
government be affected by their performance in this field, that 
option is on the table. It's there.
    Mr. Palmer. Well, I can tell you, and I don't know if you 
picked up on it, but I am extremely frustrated by how our 
country has handled this. We have allowed this to go on. We 
have allowed our own citizens to be victimized by it. We have 
put enormous burdens on our law enforcement as though they 
don't have enough on them already. I think it ought to be 
evident that they do. And the administration's policies, 
frankly, are not only disappointing, it is just 
incomprehensible that we continue to allow this to happen.
    Mr. Chairman, I yield back.
    Mr. Russell. The gentleman yields back. The chair now 
recognizes the gentlelady from Michigan, Mrs. Lawrence, for 5 
minutes.
    Mrs. Lawrence. Yes, Mr. Chairman, before I start my 
remarks, I would like to recognize Judith Cummins, who is a 
British Member of Parliament. She is joining eight other 
Members of the Parliament who are on the Hill today, and she is 
in the audience. I just wanted to recognize her and welcome her 
to the United States Congress.
    I want to start my remarks to say that I am hoping this 
dialogue leads to some sense of awakening to Congress that we 
need comprehensive immigration reform, and that requires action 
of Congress. It is very easy to point your fingers and 
criticize or have opinions against the administration when 
repeatedly there has been calls and requests for us to do our 
job as Congress and to develop a comprehensive immigration 
program for America. We need it.
    It is refreshing to hear that my colleagues on the other 
side actually recognize that. And so I hope from this hearing 
we will get some action and we will actually step up and do our 
job.
    I want to ask a question to Mr. Ragsdale. Does ICE request 
for alternative measures referred to in these series of letters 
that are sent out to these recalcitrant countries refer only to 
denying visas or also other tools within the state's purview?
    Mr. Ragsdale. The precise what I'll say is remedy would not 
be something that ICE would propose. In other words, we would 
work with our colleagues in Consular Affairs to figure out the 
precise interaction diplomatically. The only thing we are 
interested in is getting a travel document or somebody on an 
approved manifest that were are allowed either to board them on 
a charter air flight or a commercial air flight to remove them 
from the United States. So I would defer to my colleague from 
the State Department in terms of the precise ----
    Mrs. Lawrence. Secretary Bond, could you respond to that? 
What are the tools or what are the alternative measures that is 
referred to? Is it only the visas? What are the other tools?
    Ms. Bond. So when we agree because we are working really 
consistently, closely, and when ICE flags for us their sense 
that they are just going--getting nowhere with a particular 
country and they want to look with us at ways to increase the 
pressure, increase the focus and the attention and get results, 
some of the things that are options include for us to be 
raising that issue at a higher level of government to say at 
the working level this is not being resolved. It's not being --
--
    Mrs. Lawrence. Who are the higher levels of government?
    Ms. Bond. Well, it could include, for example, our 
Ambassador in that country going into the Foreign Minister or 
the Ministry of Interior, whoever there might be responsible 
for issuing passports and say, you know, we need to find ways 
to address whatever is keeping you from doing your job to 
identify and document citizens. There are some cases where 
foreign governments say we don't think this is our citizen. All 
right. Well, we want to see evidence that they are really 
putting effort into making a legitimate determination and that 
they've looked carefully at that case.
    This happens to us as well overseas where foreign 
governments will come to our embassy and say we think this 
person in our jail is an American. We go talk to them and we 
don't think it's an American, and that's what we tell them.
    Mrs. Lawrence. The letters that were sent, ICE that sent 
describe the difficulties with the country in question, the 
joint efforts of ICE and the Consular Affairs have been taken 
to date and each agency's view on the proposed next steps. 
Secretary Bond, how useful is the information in these letters 
in coordinating additional efforts with ICE? And I am really 
interested because ICE keeps saying that they are so limited. 
Here, we are saying there is additional efforts that ICE should 
take or can take. So can you respond to that?
    Ms. Bond. Well, perhaps I could respond giving the example 
of Liberia because that's one of the countries that's been 
raised. I visited Liberia in March, and when--and I had the 
ability to sit down with the Foreign Minister and their 
Attorney General and senior members of their government. And 
that was the number one issue that I was raising with them was 
to say we have lots of things, important things we want to 
accomplish together, Liberia and the United States. This issue 
needs to be resolved.
    And your embassy, your consulates, many of them have a 
consulate in New York that follows events at the United 
Nations, we need you to be in touch with them to be very clear 
about the priority you place on cooperation on this.
    Now, we have seen a change in the way Liberia is operating 
in this issue since March, and we are seeing travel documents 
issued, a commitment that they will continue to issue and a 
commitment that they will accelerate those issuances. If they 
don't follow through on that, they know that the threat of visa 
sanctions is a real one. This is not something where we just 
mention that that could happen. We have made it very clear to 
these countries ----
    Mrs. Lawrence. My time is up. And before I turn it over to 
Mr. Chairman, I just want to say President Obama has been 
invoked a lot in this discussion. I am proud of the fact that 
we had a President--lack of action of Congress--did try to 
address this issue and put some measures in place, and I would 
be proud to say that my Congress has stepped up and really 
started working on comprehensive immigration reform because we 
need to address these issues. Thank you so much.
    Mr. Russell. The gentlelady yields back. The chair now 
recognizes the gentleman from Ohio, Mr. Jordan, for 5 minutes.
    Mr. Jordan. Thank you, Mr. Chairman.
    Ambassador Bond, just a few minutes ago you said in 
questioning from Congressman Palmer, ``We at the State 
Department believe denying visa can be an effective tool.'' How 
can it be effective if you never use it? In the past 7-1/2 
years during the Obama administration, how many times have you 
used denying visas as one of those beliefs that it ``can be an 
effective tool''? How many times have you used it?
    Ms. Bond. We have not sanctioned--in other words, we 
haven't ----
    Mr. Jordan. Is the answer zero?
    Ms. Bond.--applied that, but what we have done ----
    Mr. Jordan. Is the answer ----
    Ms. Bond.--is to say to foreign governments this is the 
pattern that we're seeing. We're not seeing responsiveness from 
you. We're not seeing a legitimate effort to ----
    Mr. Jordan. But my question was how many ----
    Ms. Bond.--identify the citizens ----
    Mr. Jordan.--times have you used what you said you believe 
to be an effective tool? How many times have you used this 
``effective tool'' in the last 7-1/2 years?
    Ms. Bond. We have not used it.
    Mr. Jordan. Never? Okay. Now, is there any part of the 
statute you don't understand? ``On being notified that the 
government of a foreign country denies accepting an alien who 
is a citizen, subject, national, or resident of that country, 
the Secretary of State shall order consular offices in that 
country to discontinue granting visas.'' Any part of that you 
don't understand?
    Ms. Bond. No.
    Mr. Jordan. So I don't either. That is as plain as you can 
write it. So in 7-1/2 years this ``effective tool'' that you 
believe is so effective, you have never used it even though the 
statute says you shall do it if, in fact, you are given notice 
that this is going on. Is it going on? Mr. Ragsdale, do we have 
deportable aliens who have been released back on to U.S. 
streets because their home country refuses to repatriate them? 
Do we have that phenomena going on in the United States today?
    Mr. Ragsdale. Yes, we do.
    Mr. Jordan. And how many people are in that category, let's 
say in the last--we will stick with the same time frame. During 
the Obama presidency in the last 7-1/2 years, how many people 
fall into that category?
    Mr. Ragsdale. It's tens of thousands of people.
    Mr. Jordan. Tens of thousands? Tens of thousands. The State 
Department says it is an effective tool to deny visas for tens 
of thousands, and yet they have not used it once. And the 
statue says you shall do it. Now, I am missing something, 
Ambassador. What is going on here?
    Ms. Bond. The statute says that when the Secretary of 
Homeland Security informs the Secretary of State, that they--
that he wants to trigger this sanction, we shall do so, and we 
shall.
    Mr. Jordan. But you haven't. Mr. Ragsdale ----
    Ms. Bond. We have not received such a notification from the 
Secretary of Homeland Security.
    Mr. Jordan. Well, it is about time. Mr. Ragsdale, how many 
of these thousands wound up doing some kind of violent offense 
against an American, some kind of violent crime?
    Mr. Ragsdale. So there are criminal aliens in this group. 
There is no question about that.
    Mr. Jordan. A lot? Hundreds? Thousands? Hundreds have done 
violent crimes and there should have been at least some 
sanction against their home country ----
    Mr. Ragsdale. It is ----
    Mr. Jordan.--that wasn't put in place?
    Mr. Ragsdale. It is a substantial number.
    Mr. Jordan. How many of those thousands--do you know any of 
those thousands, any of them on the terrorism watch list?
    Mr. Ragsdale. I do not believe any pose a national security 
threat for that reason.
    Mr. Jordan. That is not what I asked you. Are any of them 
on the terrorism watch list? There are thousands who are in 
this category where we haven't taken any sanctions against 
their home country. Any of them on the terrorism watch list?
    Mr. Ragsdale. We do a full background check on all the 
appropriate indices before we release anyone.
    Mr. Jordan. Is the answer yes or no to that question?
    Mr. Ragsdale. I would loathe to speculate, but the answer 
should be no.
    Mr. Jordan. Should be no but you can't say definitively?
    Mr. Ragsdale. With substantial confidence ----
    Mr. Jordan. Any of them on the no-fly list?
    Mr. Ragsdale. With substantial confidence I would say no.
    Mr. Jordan. Any of them on the no-fly list?
    Mr. Ragsdale. Again, I don't want to speculate because of 
course that is a fluid list. Somebody may not have been on the 
no-fly list in one year and added and vice versa. So in the --
--
    Mr. Jordan. I am talking the Obama administration, in that 
time frame, any of these folks who should have been sent back 
to their home country and we took no sanctions against the home 
country, any of them wind up on the terrorism watch list or the 
no-fly list?
    Mr. Ragsdale. So I cannot speculate over the course of 7-1/
2 years.
    Mr. Jordan. Can you get us that information? That would be 
something we would like to know.
    Mr. Ragsdale. We certainly can--what I can tell you for 
certain is we do every appropriate background check before we 
release someone. That I am certain of.
    Mr. Jordan. So why aren't you giving notice to the State 
Department to do what the statute says?
    Mr. Ragsdale. So as the chairman noted, our director has 
worked with Assistant Secretary Bond on ratcheting up on at 
least four countries with the potential for 243(d) sanctions, 
and we will work on that. You know, again ----
    Mr. Jordan. It is always we will work on it, we are looking 
at it, we are trying, all this wonderful talk. I think it is 
clear, statute is very clear, if the State Department believes 
it is an effective tool, then you have got to put them on 
notice so they can use the tool. I don't know if they will, but 
let's hope they would. It is the old line, when you do 
something right, you don't have to do it often, right? But if 
you never do it, you never send the message. And that to me is 
the takeaway here.
    Mr. Chairman, thank you. I yield back.
    Mr. Russell. The gentleman yields back. The chair now 
recognizes the gentlelady from New York, Mrs. Maloney, for 5 
minutes.
    Mrs. Maloney. Thank you, Mr. Russell.
    I think we have found something, Mr. Jordan, we can work 
together on. I couldn't agree with you more. And I think we 
ought to change the law, just take Homeland Security out of it 
and put the State Department in charge. And when it says that--
by the way, I have a lot of respect for both of your offices 
and you and thank you for your public service. But if it is not 
working, we have got to change it. And everybody says, well, 
maybe if the State Department got involved, we could negotiate, 
as you have done with Liberia, to get a better result. I would 
say let's change it and get the State Department involved in 
the beginning and then start using this. Since Homeland 
Security is focused on other things more than this, maybe we 
should rewrite it, take them out, and have the State 
Department--you would have to wait for a referral.
    I think the number one duty of government is to protect our 
people, and the fact that dangerous people are put back on the 
street that can murder people like Ms. Casey Chadwick is one of 
the reasons we can't pass comprehensive immigration reform. 
They keep reading these stories and it is hard to get people to 
agree if we can't even agree on how we are going to make this 
work.
    So I think you have taken some positive steps having that 
list that you put together. I think that the Jean Jacques case 
highlighted the need for our government to identify what 
countries are the most noncompliant so that both of you, State 
and ICE, can work together to get them to comply.
    And it is my understanding that in 2015 ICE began using a 
pilot tool to help identify the countries that are the most 
recalcitrant, and I think that that is important. Do you make 
that list public? Is that list public? Is it up on the Web site 
like your tips report is on what countries are not 
participating in combating sex trafficking? What do you do with 
that list? Is it a private list or do you put it out on the 
Internet or what do you do with it?
    Mr. Ragsdale. So I don't believe we have it necessarily on 
our Internet post. I mean, it's certainly something that we've 
discussed with some real clarity here. And I will tell you 
that, you know, the--as you note, we had sort of an anecdotal 
list over the course of years on determining who was 
recalcitrant. This tool is what I'll say is a positive step 
forward that puts some analytics behind it. We also use ----
    Mrs. Maloney. How does the tool work? Can you describe it?
    Mr. Ragsdale. It weighs various factors. It weighs ----
    Mrs. Maloney. Pardon me?
    Mr. Ragsdale. It weighs whether someone would take charter 
flights, it weighs how long it takes them to issue travel 
documents, it weighs by nationality the removal rate versus the 
release rate. It also takes into consideration the conditions 
of each country. There may be countries that are recalcitrant 
because there's no functioning government. So it takes all of 
those into account and then produces essentially the analysis.
    Mrs. Maloney. Well, I think if you have a country that 
doesn't have a functioning government, that is a no-brainer. We 
should use our visa sanctions. And if you have a country that 
won't take a Jean Jacques back after he has murdered people, 
gone to jail, and been a bad, bad actor in our country, then we 
should give them a visa sanction.
    I think we have got to start acting on this and not just 
talking about it because as long as you have all these 
criminals running around causing problems that are illegal 
immigrants, it is very hard to get any functioning immigration 
discussion going.
    And we are the greatest country on earth. We can figure 
this out? I think you have to put the State Department in 
charge because they will make it a focus. And you have been 
successful, Ms. Bond, as you mentioned in your meetings with 
Liberia, and make some changes to the law and make it function.
    I think also a very successful tool in the State Department 
was the report you did on trafficking. I think we should do the 
same type of report on how they are cooperating and taking back 
illegal immigrants that are killing people in America and put 
it up for the American people to see. And I think you should 
take strong actions on it.
    This is something we can do. This is something I would 
think that every single American in this country would agree 
with in one of the most controversial areas, immigration. So I 
hope we can work together to make that happen, and I hope that 
Congress will legislate on it and come out with some specific 
ways to make this move forward.
    My time is expired, I believe, but in any event, why have a 
law if you don't use it? And it is getting to the point where 
people do not trust our immigration system or trust our 
government to protect them.
    Anyway, I yield back.
    Mr. Russell. The gentlelady yields back. The chair now 
recognizes the gentleman from Florida, Mr. Mica, for 5 minutes.
    Mr. Mica. If I may start and follow up on the gentlelady 
from New York's questions, we started asking about countries 
and noncooperation or countries where these folks are coming 
from. Can you tell us like what is the leading country?
    Mr. Ragsdale. In terms of the overall number of folks that 
are ----
    Mr. Mica. Yes.
    Mr. Ragsdale.--have a final removal order? It would be 
Cuba. Cuba or China, excuse me. China, I think, is number one.
    Mr. Mica. Well, we just established relations with Cuba and 
we have had relations with China. And can you provide the 
committee with some numbers?
    Mr. Ragsdale. Certainly.
    Mr. Mica. Do you have them?
    Mr. Ragsdale. They are roughly, I think, about 39,000 
individuals from China. It looks like Cuba is around 36,000.
    Mr. Mica. Wow.
    Mr. Ragsdale. So what I will importantly note that both 
from China and Cuba, as the assistant secretary said ----
    Mr. Mica. And ----
    Mr. Ragsdale.--we have raised the issue with Cuba, first 
and foremost as--and folks are doing it as we speak, and with 
China ----
    Mr. Mica. Because that just opened up and I would think it 
would be one of the top diplomatic issues that we would raise. 
Is that right, Ambassador?
    Ms. Bond. It is. It is a subject we're ----
    Mr. Mica. But they have not--have they acquiesced in any 
way?
    Ms. Bond. Their response has been that they want to reopen 
the broader issue of immigration rules of travel between Cuba 
and the United States.
    Mr. Mica. But there is no progress then?
    Ms. Bond. Not yet.
    Mr. Mica. Okay. You also said, Ambassador, while we are on 
you, that you hadn't gotten any indication from DHS to move 
forward, and that is what you were waiting on on moving forward 
with some of the visa restrictions?
    Ms. Bond. The specific question was why hadn't we imposed 
the sanction ----
    Mr. Mica. And you said because you had ----
    Ms. Bond.--and the technical--you know, the legal answer --
--
    Mr. Mica. Yes.
    Ms. Bond.--is because we didn't get that--but again, it's 
so important to stress that we work very, very closely with DHS 
----
    Mr. Mica. But obviously ----
    Ms. Bond.--on this issue.
    Mr. Mica.--you are not doing anything because they didn't 
ask or tell you to do anything, did they?
    Ms. Bond. We're not imposing visa sanctions for that reason 
----
    Mr. Mica. But, again ----
    Ms. Bond.--but we are doing ----
    Mr. Mica.--the reason ----
    Ms. Bond.--lots of things ----
    Mr. Mica.--as you said--I thought you testified, Mr. Jordan 
asked the question, that you had not been directed, so you were 
waiting to hear from DHS.
    Ms. Bond. It is correct to say that we ----
    Mr. Mica. Okay.
    Ms. Bond.--have not received that notification ----
    Mr. Mica. Mr. Chairman ----
    Ms. Bond.--but not correct to say ----
    Mr. Mica.--the committee and members ----
    Ms. Bond.--that we're waiting.
    Mr. Mica.--and this appears to have some bipartisan appeal, 
we can send a letter from the committee asking DHS to get the 
word to Ambassador Bond and State to take action here. Maybe 
that would help. Sometimes we don't have to legislate, although 
that is another question that I have further on is any gaps in 
legislation to allow you to proceed.
    Let me go back for a minute here. About half the people 
here I guess were here illegally, came in illegally, totally 
illegally, and then about half I guess came in and overstayed a 
visa, a student permit, or work permit. I guess that is about 
right, Mr. Ragsdale?
    Mr. Ragsdale. It would be a blended set.
    Mr. Mica. Just--yes. But the President's Executive order or 
directive on amnesty, that affected about half of the 
population I think. And of that, your--well, one of your 
responsibilities, whether they are part of that population or 
other population is to remove criminal illegals, right?
    Mr. Ragsdale. We--once ----
    Mr. Mica. Yes?
    Mr. Ragsdale.--a removal order is final ----
    Mr. Mica. Yes.
    Mr. Ragsdale.--and we are able to execute it, we request a 
travel document immediately.
    Mr. Mica. But you remove them. And what is interesting from 
our last hearing we found 2013--these are domestic not at-the-
border removals--you had 110,000 in 2013. In 2014 86--I will 
give you credit for--you were close to 87,000. In 2015 you are 
down to 63,000. We keep seeing a reduced number in those that 
you are actually removing. Those figures are correct?
    Mr. Ragsdale. I think as you've known for your last hearing 
the complexity in arresting, locating, and removing folks ----
    Mr. Mica. But ----
    Mr. Ragsdale.--in the interior of the United States ----
    Mr. Mica.--the net result is ----
    Mr. Ragsdale.--is a challenge and the numbers have fallen, 
yes.
    Mr. Mica.--not quite half in several years, but we are 
going forward.
    And then finally, just about out of time, any legislative 
tools--there was this Executive directive and then there was 
a--and for a while you all said and a lot of people said they 
didn't know what they could do or couldn't do because of the 
status, and then you had this court case that said they had to 
be released within 180 days. Then you had the reversal of the 
Obama decision. Where are you now in your ability to remove 
criminal illegals?
    Mr. Ragsdale. Again, we still need final orders of removal 
and travel documents, so that doesn't change. I think, as 
everyone has said, a comprehensive reform could fix a lot of 
challenges.
    Mr. Mica. Thank you.
    Mr. Russell. And the gentleman yields back.
    And I would like to follow on to one thing that Mr. Mica 
had said. You know, with respect to Cuba that is still kind of 
an underdeveloped relationship there but not so much with 
China. What is the reason that China is giving for not taking 
these citizens back? What is the big holdup? Is there a trend? 
Are there specifics? Ambassador Bond?
    Ms. Bond. I have discussed this myself with the Chinese in 
Beijing and yesterday with China's Ambassador here to emphasize 
again that we want to see this be a higher priority for the 
Chinese Government. We want to see them put the resources in to 
this issue that would be required to resolve the high numbers 
that you have just heard cited. So there are, you know, 
different reasons that they give ----
    Mr. Russell. Such as?
    Ms. Bond. They say, for example, that in some cases 
people--people may be in the United States with a Chinese 
passport, and they say, well, we would need to be able to look 
into whether that was a legitimate passport and whether it was 
issued to that individual. There are people out there in false 
identities and so forth. Some of the people have no 
identification because they tore up whatever they had before 
they came into the United States, and the Chinese have said 
it's difficult for us to confirm the identity of some of these 
people, especially if they turn out to be from a rural area. 
They have said in some cases someone may be Chinese ethnically 
and sound Chinese and so forth but actually be from Malaysia or 
another country, and they're not willing to document someone as 
a Chinese national unless they can confirm that that's the 
case.
    All of those are perfectly legitimate things to raise as 
issues that need to be addressed. What we're looking for is 
evidence that they are seriously addressing them and that they 
are paying attention to this. And that was the point that I was 
stressing to the Ambassador. It's--we don't want to hear 
excuses for why it's so hard. China is a big country. They do 
hard things. They can do this.
    Mr. Russell. Thank you. And the chair now recognizes the 
gentleman from Pennsylvania, Mr. Cartwright, for 5 minutes.
    Mr. Cartwright. Thank you, Mr. Chairman. And, Mr. Chairman, 
like you, I take protecting the safety and security of American 
citizens as my most solemn duty as a Member of Congress, and I, 
like I think most Americans, am troubled when I hear these 
stories about illegal aliens who have committed crimes in the 
United States, served their sentences, and then are released 
back into the population.
    And I understand that happens because of that Supreme Court 
of the United States decision in 2001, and I also think that 
the wrong answer is to punish local police forces and local 
municipalities. I think the focus does have to be where it is 
today on these nations that are recalcitrant in taking back 
these illegals that committed crimes in the United States.
    Assistant Secretary Bond, I understand the list of those 
nations is in the neighborhood of a couple of dozen. Is that 
about right?
    Ms. Bond. Yes, sir. There are 23 countries on the list.
    Mr. Cartwright. I also understand that Mexico is not among 
those, am I correct in that?
    Mr. Ragsdale. Mexico is not among them.
    Mr. Cartwright. Okay. Well, I ask that because there are 
voices out there screaming about Mexican illegal immigrants who 
are committing crimes in this country, but Mexico has 
cooperated in taking back illegals who have committed crimes, 
served out their sentences, and need to go back to Mexico, is 
that right?
    Mr. Ragsdale. That is right, and they do that both along 
our southwest border and we also have an interior repatriation 
flight where we fly criminal aliens directly from the United 
States into Mexico City.
    Mr. Cartwright. All right. Now, Mr. Jordan was going on 
about the question of whether we have ever issued these section 
243(d) sanctions in the last 7-1/2 years in this 
administration, 243(d) sanctions meaning revoking visas for 
people who want to come to our country from those so-called 
recalcitrant nations. And he made the point that we have not 
issued those sanctions, and I guess that is the reason for the 
title of this hearing today.
    Here is my question. Ambassador Bond, have we ever 
threatened the use of those sanctions or intimated or hinted 
that we may impose those sanctions in individual relations with 
particular nations?
    Ms. Bond. Yes, we absolutely have done that.
    Mr. Cartwright. Is that part of your toolbox?
    Ms. Bond. Yes.
    Mr. Cartwright. Do you use it?
    Ms. Bond. We have informed specific countries that are on 
the recalcitrant list that we have to see results and--within a 
time-bound period of time or there is going to be a real 
likelihood that the next step would be visa sanctions.
    Mr. Cartwright. And visa ----
    Ms. Bond. And what we have seen in many cases is that you 
do get a response to that, that ----
    Mr. Cartwright. That was my next question. Does it work?
    Ms. Bond. It does. The--but let's be clear. It works in the 
sense that we do see a response, a reaction, an additional 
attention being paid, actual travel documents being issued, and 
aliens being removed from the United States. It requires 
constant pressure because what you can't do is to issue a 
threat and they give you a response and then that doesn't 
become a pattern. What we are working to do is to make it a 
routine. With more than 100 countries, this is a routine, 
normal thing. This is what governments do.
    I've been responsible when serving overseas for documenting 
someone who's coming out of jail and making arrangements to put 
that person on a flight and sometimes making arrangements for 
U.S. Marshals to fly with him or meet him because there's an 
outstanding warrant for that person in the States.
    But it is the job of a government to identify and document 
its citizens and to take that seriously.
    Mr. Cartwright. I don't mean to interrupt you, but I have 
only got half-a-minute left. If you want to use the threat of 
visa sanctions effectively, would it make sense to actually 
impose them once in a great while?
    Ms. Bond. It absolutely would make sense to do that in 
cases where we are--we're able to say to that country you 
simply are not responding.
    Mr. Cartwright. Right.
    Ms. Bond. You have left us no choice. But in cases where 
people are responding and you are moving forward, then it can 
be a distraction and unhelpful to say, okay, we see you doing 
this and now we're going to bring the hammer down.
    Mr. Cartwright. I understand that. So one size fits all 
doesn't make sense, but I urge you to consider redoubling your 
efforts and your focus on this area. I do want to associate 
myself with the thoughtful remarks of Congresswoman Maloney. 
She has a point when she says these stories, these stories of 
criminals going back and engaging in recidivism in the United 
States are retarding our ability to get the message out about 
the importance of comprehensive immigration reform. That is 
going to continue to be a problem, and you can really help us 
if you redouble your efforts to focus on these recalcitrant 
nations.
    And with that, I yield back.
    Ms. Bond. Thank you.
    Mr. Russell. The gentleman yields back, and the chair now 
recognizes the gentleman from Iowa, Mr. Blum, for 5 minutes.
    Mr. Blum. Thank you, Mr. Chairman. Thank you to our 
witnesses today shedding some light on this most important 
topic.
    I am a career businessman. I am used to getting things 
done. When I go back to my district and Iowa citizens way, you 
know, that is really nice, these oversight hearings, it is 
great you are pointing out waste, fraud, and abuse in the 
Federal Government, but whatever gets done? Whatever gets done? 
So I am here to ask you those type of questions.
    I have heard a recurring theme today, same message, both 
sides of the aisle perhaps stated in different ways. I would 
like to ask each of you what have you heard today? What are you 
going to take away from this hearing today? Ambassador Bond, 
can you summarize for me?
    Ms. Bond. Yes, sir. What I have heard is a clear message 
from this committee, both sides of the aisle, that this is a 
critical issue, that members want to see more effort focused on 
getting results, getting people out of the country who are 
subjects of final order of removal and that you want us to use 
every tool at our disposal to make that happen.
    Mr. Blum. Mr. Ragsdale?
    Mr. Ragsdale. I would completely agree with that summary, 
and I would also add and thank the committee for bringing this 
hearing and your voice to this important issue. I will tell you 
on behalf of the law enforcement men and women of ICE there is 
nothing we would like to do more than remove every single 
person we can who is the subject of final order, particularly 
criminal aliens.
    Mr. Blum. Most every citizen of this country agrees with 
what you just said. Now, as the businessman in me, what is 
going to be done? I think you have got the message, and that is 
good to hear, A. Now, what is the action plan? What is going to 
happen, anything, or is this just going to be a hearing and 
that is it, nothing is going to change?
    Ms. Bond. Sir, as Mr. Ragsdale has pointed out, it helps us 
in our efforts that we are able to point out to these countries 
that this is an issue that is receiving attention and priority 
broadly, not only in the executive branch but also in Congress 
and that they have got to deliver, they have got to show actual 
results and not just promise that they're definitely positively 
absolutely going to do things differently.
    And so we are in regular communication with--especially 
with the countries on this list but with all of them, with all 
of them, and we will make it clear we have to see results. We 
do have commitments from these countries that we will, but we 
will be making it clear. If we don't, then Congress is looking 
for examples of every tool being employed, and we are going to 
have to comply with that obviously and working with ICE because 
this is a joint operation. This is a good example of the kind 
of issue that requires diplomatic and law enforcement and the 
combined effort of more than one agency, and we are a strong 
team working on this issue.
    Mr. Blum. Mr. Ragsdale?
    Mr. Ragsdale. Again, I completely concur that ----
    Mr. Blum. What is going to be done?
    Mr. Ragsdale. There's two things we're going to do. We're 
going to continue to refine the model so we make the most 
persuasive case we possibly can from the analytical tool that I 
talked about to make it clear when countries are in fact 
recalcitrant. So we're going to arm the State Department with 
the best information possible.
    The other thing we're doing is we are expanding our 
overseas footprint so we are not completely relying on the 
diplomatic side, but where there's law-enforcement-to-law-
enforcement connectivity in countries where we can work state 
and local governments shoulder to shoulder when we work with 
them on many other topics to try to get travel documents. So 
there's a partnership both here, and we're going to work abroad 
to get action.
    Mr. Blum. I am frustrated because the statistic on my paper 
says since 2011 13,511 criminal aliens have been released back 
into American communities. This isn't rocket science. I know we 
are dealing with other countries. Americans want action. They 
are behind you. They want you to do this. They are behind you. 
I don't know if the administration is at 1600 Pennsylvania 
Avenue, but the American people are behind you. They want 
action. Thirteen thousand five hundred and eleven have been 
released back into American communities. We need action, not 
just hearings, we need action.
    I would like to have a follow-up hearing on this to see 
what action has taken place 6 months from now. And why hasn't 
this action taken place in the last 5 years? We all would agree 
it is not rocket science. Thirteen thousand five hundred and 
eleven, why? Where is the holdup? Where is the block at? What 
is stopping each of you in your departments, your agencies from 
doing exactly what you heard here today and what you profess to 
agree with? What has been the blockage? Tell me so we can 
remove it. Let's be honest. Tell me.
    Ms. Bond. This is a difficult situation. We are dealing 
with countries, all of them, and specifically with ones that 
consistently have a pattern of failing to step up and do 
everything that they can do on their side. We are pushing them 
for action. When we are seeing results, we keep pushing so that 
they'll keep moving in that direction.
    But we have heard you loud and clear that the committee 
believes that using every possible tool has got to be something 
that is a real threat and that people are--don't think, oh, 
yes, there they go again raising that, but that they know that 
we will do it if we aren't seeing the cooperation that they are 
obliged to provide under international law.
    Mr. Blum. Mr. Ragsdale?
    Mr. Ragsdale. So, briefly, I'll simply say this is pressure 
that has been brought to bear over the course of years, and 
while it may not have included visa sanctions, the charter 
flight to India, the charter flight to Africa that I mentioned 
earlier on are successes from groundwork that was laid over the 
last couple of years. So we hear you loud and clear on using 
every option, and we'll work together to do it.
    Mr. Blum. I implore you to take this message today back to 
your agencies. And my time is expired. Thank you for your 
insights.
    Mr. Russell. The gentleman yields back, and the chair now 
recognizes the gentleman from Virginia, Mr. Connolly, for 5 
minutes.
    Mr. Connolly. I thank the chair.
    And I am sorry to be late. I was on the Floor and then had 
a markup in the House Foreign Affairs Committee, and it is a 
busy today, our last day in session. So I thank the indulgence 
of the chair.
    Mr. Ragsdale, section 243 of the Immigration and 
Nationality Act allows the Secretary of Homeland Security to 
formally notify the Secretary of State that a foreign 
government is denying or unreasonably delaying the acceptance 
of deportees, is that correct?
    Mr. Ragsdale. That is what the statute says, yes.
    Mr. Connolly. And the last time we did that was when?
    Mr. Ragsdale. I understand it's 2001 when it was the 
Immigration and Naturalization Service and the Attorney 
General.
    Mr. Connolly. With Guyana, was that ----
    Mr. Ragsdale. With Guyana, yes.
    Mr. Connolly.--the country of Guyana? And, Ambassador Bond, 
so the law further stipulates that when that happens, certain 
things are required of the Secretary of State. They 
automatically are supposed to occur, is that correct?
    Ms. Bond. Yes.
    Mr. Connolly. And can you delineate for us what are those 
things?
    Ms. Bond. Yes. If the Secretary of Homeland Security 
notifies the Secretary of State that he wants to trigger this 
sanction against a specific country, then we would decide what 
exactly are we going to do.
    In the case of Guyana, the decision was made to stop 
issuing visas to members of that government and their family 
members, spouses, and children. And it was effective. It played 
a role that this was a small government where everybody who 
needed to be part of making a decision to make a change was 
part of a small group, and it played a role that the citizens 
of that country, including their members of government, for 
them, if you had the means to travel, the destination was the 
United States. So those are factors that did help to make it 
very effective in that particular case.
    There are some countries where the destination for most 
people would be Europe and they would be less impacted by our 
decision not to issue a particular kind of visa. But--so, all 
right, our job then would be to figure out what is the measure 
you could take that's going to have the biggest impact and the 
most likely to get their attention and to have the effect that 
you're going for, which is the removal of those aliens because 
that's the goal. We want them out of the country.
    Mr. Connolly. Right. Is one to construe--and this goes to 
both of you, and you, Mr. Ragsdale, first. Should one construe 
from the fact that the last time the head of Homeland Security 
provided that notification to the Department of State, 
Secretary of State was 15 years ago that we haven't had a 
problem in the interim?
    Mr. Ragsdale. No, we certainly could not construe that. But 
I would also say it does not--one should also not construe that 
nothing has been done to ----
    Mr. Connolly. That is ----
    Mr. Ragsdale.--try to address the problem in the interim.
    Mr. Connolly. Right. What should be construed?
    Mr. Ragsdale. So there has been--again, if you note, the 
MOU between Consular Affairs and ICE was signed in 2011, so, I 
mean, this--the formalization of our process to identify and 
work on recalcitrant countries is 5 years old.
    The work to get countries off the recalcitrant country 
list, and there have been some that have come off, that's work 
that's been done over the ----
    Mr. Connolly. So ----
    Mr. Ragsdale.--that period of time.
    Mr. Connolly.--one might--if I may interrupt, and again, 
feel free to comment, Ambassador Bond, one might conclude from 
what you just said that, look, this authority or strengthening 
this authority through new legislation is a very crude weapon 
and that what we are trying to do is use other means of 
coaxing, eliciting cooperation from an offending nation. Would 
that be a fair conclusion?
    Mr. Ragsdale. I would agree.
    Mr. Connolly. Ambassador Bond?
    Ms. Bond. Yes, that's the case.
    Mr. Connolly. Why is that a better way to operate than just 
bludgeoning somebody over the head, we are going to shut it all 
down if you don't do what we say? You are a diplomat.
    Ms. Bond. What we are going after ----
    Mr. Connolly. This is a softball question. This is the 
opportunity to promote diplomacy, Ambassador Bond, in 46 
seconds.
    Ms. Bond. Well, I hope I don't blow it. The--we all agree 
on what the goal is here. We want the process with every single 
country to be one that works automatically and smoothly, and 
when there are inevitable individual cases that are problematic 
that we have an efficient means of addressing those and 
resolving them so that we don't have the numbers that we've 
been talking about here. So ----
    Mr. Connolly. And real quickly, has that been effective 
from your point of view?
    Ms. Bond. It has been effective in a number of different 
cases where there are countries that were not taking their 
citizens back, were not prioritizing this, were not putting the 
resources into saying, yes, let's figure out who is and isn't a 
citizen, and now they are. And some of them are countries that 
have a lot fewer resources than countries like China ----
    Mr. Connolly. My time has expired. I would invite you to 
submit such a list, at least illustrative list to the committee 
to substantiate that. We don't have time to pursue it.
    Mr. Connolly. Mr. Chairman, again, thank you for your 
indulgence.
    Mr. Russell. The gentleman yields back, and the chair now 
recognizes the gentleman from North Carolina, Mr. Meadows, for 
5 minutes.
    Mr. Meadows. Thank you, Mr. Chairman.
    Thank you both for your testimony, your longstanding 
service. Ambassador Bond, I want to thank you for your service 
not only in your current position but obviously your 
longstanding service in the Foreign Service.
    So I want to clear up a few things because we have been 
talking and you hear--I guess rarely in this committee do we 
get as much bipartisan support of using a particular tool. Some 
would suggest to use it more cautiously. I would suggest, 
Ambassador Bond, that you have used it extremely cautiously, 
and that is perhaps why we are here today. And so I mean that 
as a caution that you can take back to the Secretary and 
suggest that not only are we looking at this but we expect real 
progress. And by that, I know the difficulties you have with 
diplomacy and how it is most of the time a carrot, not a stick, 
but it sounds like we are using a lot more carrot than stick. 
Does that make sense?
    Ms. Bond. Yes. What we are using is the power of 
persuasion, pointing out ----
    Mr. Meadows. Yes, but let me just be frank is if you were 
speeding and you have a law enforcement officer who pulls you 
over for speeding constantly and you never get a ticket, the 
typical person will continue to speed if they never get a 
ticket. And for 7 years you have never given a ticket. You have 
never really invoked the powerful tool that is at your 
disposal.
    And so it sends a chilling message to many people who say 
we will listen, we will take their calls, we will be polite, 
but there is no incentive for them to take back these criminals 
other than being nice and the little bit of pressure.
    So here is what I am asking you to do is to report back to 
this committee on those that are making progress because you 
said if they are making progress, we don't invoke it, so that 
would say that you are making progress on all those areas. We 
need to understand what the progress is, and even if we need to 
do that confidentially, we are willing to do that. Are you 
willing to do that in 6 months to help us understand this a 
little bit better?
    Ms. Bond. Yes.
    Mr. Meadows. All right. Thank you.
    Mr. Ragsdale, you are a very eloquent speaker, and you have 
said a number of things, but let me tell you where I am 
concerned. And I love my law enforcement officers. In fact, you 
won't find anybody in Congress who loves their law enforcement 
officers more than this guy right here. Here is what I am 
hearing from the ground. As much as you say, well, we are being 
diligent and we are doing it all, there is a real frustration 
within ICE that you are handcuffed with regards to actually 
dealing with this problem.
    And when you say that you don't know if any of the people 
that you have released were on the terrorist watch list, that 
is very concerning to me that you wouldn't check it against 
that because you said we did a full background check I think is 
what you said, is that correct?
    Mr. Ragsdale. So, no, let me be clear. If--we would have 
cleared every single release against all appropriate databases. 
I didn't specify which ones, but I will assure you, it is 
also--it includes national security ----
    Mr. Meadows. So have you released people who have been 
accused of murder and rape?
    Mr. Ragsdale. So ----
    Mr. Meadows. I know the answer so go ahead and you can ----
    Mr. Ragsdale. Yes. So the answer is yes, and I think the 
thing ----
    Mr. Meadows. So how ----
    Mr. Ragsdale. Those are two very, very different things.
    Mr. Meadows. I understand that, but it doesn't make my 
neighborhood feel any better if you are releasing murderers and 
rapists than it would be terrorists.
    Mr. Ragsdale. And we are as frustrated as you are, but 
let's be clear ----
    Mr. Meadows. So ----
    Mr. Ragsdale.--there are distinctions ----
    Mr. Meadows.--what do you need?
    Mr. Ragsdale. So our ----
    Mr. Meadows. What do you need?
    Mr. Ragsdale. Our detention authority, after the Supreme 
Court has ruled on this issue, is only for the purposes of 
removal. We do not have preventative detention. So if ----
    Mr. Meadows. Well, hold on just a second because I looked 
that up because after you mentioned that I went to look it up, 
and it says that you can hold them for 6 months ----
    Mr. Ragsdale. Correct.
    Mr. Meadows.--if there is no reasonable likelihood of them 
being removed. Now, during that 6-month period of the 
Department of Homeland Security sends her a notice, there is a 
reasonable likelihood that they will be removed. And yet there 
hasn't been a single solitary notice to the Department of State 
from the head of your agency. Why is that?
    Mr. Ragsdale. Well, again, I'm not sure I would agree with 
that characterization.
    Mr. Meadows. Well, has Jeh Johnson ever sent them a notice?
    Mr. Ragsdale. So the head of our department--so this is 
what we've done ----
    Mr. Meadows. Answer it yes or no. Has Jeh Johnson ever sent 
anything to the Department of State?
    Mr. Ragsdale. Not to my knowledge for 243(d) sanctions, 
but, as you know ----
    Mr. Meadows. Exactly.
    Mr. Ragsdale.--there's a 2014 letter ----
    Mr. Meadows. So ----
    Mr. Ragsdale.--in the record ----
    Mr. Meadows. So is ----
    Mr. Ragsdale.--on this point.
    Mr. Meadows. So is it your testimony here today that it is 
okay to release murderers and rapists into society without 
doing anything about it?
    Mr. Ragsdale. Absolutely not.
    Mr. Meadows. I agree. So ----
    Mr. Ragsdale. And what's also clear is ----
    Mr. Meadows. So the point ----
    Mr. Ragsdale.--what I can't do, sir, is detain people 
indefinitely. I just want to be clear that we are proposing, 
you know, the fact with reality.
    Mr. Meadows. But the ruling is very clear. If ----
    Mr. Ragsdale. We will ----
    Mr. Meadows. So do I have your commitment that you will 
lobby Secretary Johnson that if you are holding him for more 
than 6 months that he will make a referral to the Department of 
State ----
    Mr. Ragsdale. I have briefed the Secretary on this issue 
personally. That is what--one of the things that prompted the 
letter.
    Mr. Meadows. So he said he wouldn't do that.
    Mr. Ragsdale. He did not say that.
    Mr. Meadows. So when are we ----
    Mr. Ragsdale. In fact, I think in front of the Senate 
Judiciary Committee last week he noted that 243(d) sanctions 
were something that he is in fact considering.
    Mr. Meadows. Well, at one point does it get elevated to a 
level where it makes a difference? Because her testimony said 
is her number one priority is make sure that Americans abroad 
are safe. I find that very difficult--I want to make sure that 
Americans here are safe as well ----
    Mr. Ragsdale. And we ----
    Mr. Meadows.--and unless you are doing your job, it is not 
going to happen.
    Mr. Ragsdale. Sir, you have no disagreement. We completely 
agree.
    Mr. Meadows. All right. So here is what I would ask you to 
do. Are you willing to commit--last question, Mr. Chairman. Are 
you willing to commit to start putting on the Internet the 
number of people that you release that have criminal 
backgrounds on a monthly basis?
    Mr. Ragsdale. We will certainly take that for consideration 
and talk to our folks in terms of--rolled up data, we probably 
could do, yes. We--there's obviously some legal constraints in 
how much data we can actually put out there.
    Mr. Meadows. There is no constitutional problems. They are 
not U.S. citizens. I will yield back.
    Mr. Russell. The gentleman yields back.
    We are pleased to welcome and recognize the gentleman from 
Connecticut, Mr. Courtney, for 5 minutes. Welcome.
    Mr. Courtney. Thank you, Mr. Russell. And I want to thank 
the chairman and the ranking member for allowing me to sit in 
on this hearing.
    And as was mentioned at the outset, I come from the 
district where Casey Chadwick lived when she was murdered in a 
case that falls squarely in the purview of today's proceedings. 
And it is obviously something that in Connecticut people are 
watching intensely and again are still very frustrated about 
sort of the unfolding facts that have emerged since that 
horrific incident occurred.
    Mr. Chairman, I don't know if the inspector general's 
report was formally entered into the record for these 
proceedings, but I would ask, again, unanimous consent to have 
the IG's report admitted.
    Mr. Russell. Without objection, so ordered.
    Mr. Courtney. Thank you. And, again, I was here for the 
opening testimony, and I would just say anyone who reads the 
IG's report and compares it with the opening testimony, it 
paints a far different picture in terms of what the IG found. 
And again, they intend to probe deeper with a second phase in 
their report.
    So, for example, on page 4 of their report, you know, they 
kind of go into the nature of the integration or interaction 
between DHS and the Department of State. It is virtually 
nonexistent in terms of the picture they painted. The case of 
Mr. Jacques is a case where, again, the State of Connecticut 
did everything right. They convicted this individual for 
attempted murder back in 1996, served 16 years, was released 
into the custody of ICE. There were three unsuccessful attempts 
that were rebuffed by the country of Haiti, and a decision was 
made by really lower-level folks that, again, he should not be 
detained any further because there did not appear to be a 
likelihood of repatriation. Again, that was done with 
absolutely no consultation with the Department of State.
    When asked, the deportation officer's response was that it 
was their understanding that only cases of terrorism and 
national security would be elevated to State for the purpose 
of, again, pushing back against, you know, that nation state.
    So I guess, again, just for the record, you know, Ms. Bond, 
again, there is no limitation in terms of State's discretion in 
terms of using either visa suspension or letters demarche or 
whatever in terms of pushing back on an individual case, is 
that right?
    Ms. Bond. That's correct. And we would engage with a 
foreign government on any individual case, as well as on the 
broader subject.
    Mr. Courtney. Right. So as the inspector general 
determined, I mean, there clearly is a real problem in terms of 
the policy level of awareness in terms of deportation officers 
and people making decisions at DHS about whether to move it up 
the food chain. So whatever the memorandum of understanding is 
between the two departments, I mean, what this report shows is 
just a totally dysfunctional implementation of the two 
departments working together in these very difficult cases.
    The other finding that they made was that the case load of 
the deportation officers in Newark, which is where Mr. Jacques 
was being supervised, was that there were three or four 
deportation officers assigned to approximately 37,000 released 
aliens. Again, a number of us have worked in the court systems 
and understand what that means in terms of whether you are a 
probation officer or a parole officer or a public defender.
    I mean, the notion that four deportation officers could 
coherently manage that number of cases both in terms of 
supervision in the community, as well as following up on 
repatriation, I mean, there is clearly, sir, Mr. Ragsdale, a 
management problem in terms of, you know, really creating a 
situation that is totally mission impossible. I mean, I don't 
care how smart or capable a deportation officer is. You can't 
manage a caseload like that. Are they wrong or is that what you 
are seeing out there?
    Mr. Ragsdale. No, I think you have characterized that part 
of the report correctly. I mean, it is a daunting challenge. 
You know, there is certainly some recommendations in that IG 
report that we will look at very closely. That IG report did 
not make recommendations formally, but there are certainly some 
things in there that need to be jumped on immediately. And we 
are ----
    Mr. Courtney. So ----
    Mr. Ragsdale.--absolutely doing that. And certainly ----
    Mr. Courtney. Well, the Connecticut delegation just sent a 
letter to Director Saldana about the fact that, you know, this 
is something that she does not need Congress to act on. And 
frankly, the fact that anybody who manages an agency or 
department wasn't aware of that kind of caseload disparity, I 
mean, that just screams out dysfunction when you just look at 
those numbers.
    Again, the other, you know, again, finding was that there 
really, again, needs to be a change in terms of training and 
education of deportation officers. So, I mean, those two 
factors alone in terms of caseload and training just gets us to 
a point where we can intelligently implement the memorandum of 
understanding.
    If you have got a situation right now where people on the 
ground whose job it is to supervise these cases don't know what 
the policies are and can't even really intelligently do it 
because of overwhelming caseload, then the memorandum of 
understanding, it is just a--it is a dead letter. It doesn't 
mean anything.
    And that is why, frankly, I will just tell both of you the 
testimony that you have delivered here today in the wake of the 
IG's report--in my district where we saw the horrific 
consequences of a system that clearly didn't do its job, I 
mean, it is almost offensive to listen to it because it is so 
divorced from the reality that the IG found. And obviously, you 
know, the consequences are something that are being felt by 
this family to this date.
    So, again, I think there is going to be legislation that is 
going to really stiffen the mandated reporting requirements 
between DHS and State because clearly that is not functioning 
pursuant to the memorandum of understanding. And frankly, your 
department, Mr. Ragsdale--I don't mean you personally--but they 
have got to do a better job of getting this game up in terms of 
understanding what the rules are, put some metrics in place 
about people who really deserve to be prioritized in terms of 
their dangerous criminal history, and that clearly just did not 
happen.
    And again, I want to thank the committee for giving this 
case an opportunity to be fleshed out. And, you know, we have 
got work to do. And again, it is not partisan. The issue of 
immigration rises above that because if we can't function in 
these kinds of cases the way--the public support for any kind 
of immigration system is going to collapse.
    I yield back.
    Mr. Russell. We thank the gentleman for being with us here 
today, and the gentleman yields back.
    I will now recognize myself for 5 minutes.
    Mr. Ragsdale--and first, let me thank both of you for your 
distinguished service to our country. It is greatly 
appreciated.
    As you can see here today, this is not a partisan issue. 
This is an American issue. Security is absolutely paramount. 
And each of you have, in the scope of your responsibilities, an 
authority, a direct means to impact it. Mr. Ragsdale, you spoke 
that regulations had been issued to allow for detention 
exceptions in special circumstances in your testimony. And you 
also said that you had faced significant legal challenges with 
your department in Federal court, and thousands of criminals 
had been released as a result. What is the basis of the 
challenge that you are receiving from Federal court, and what 
provisions of law can Congress change to assist in solving the 
problem?
    Mr. Ragsdale. I think all of this has to be considered in 
light of the Constitution, the Fifth Amendment's due process 
clause. It applies to individuals, does not necessarily have to 
be citizens. So indefinite detention is something the 
Constitution does not permit.
    The--our authority to detain people, whether it's before we 
have a removal order or after, is related to our ability to 
process them and ultimately remove them.
    Mr. Russell. So what can ----
    Mr. Ragsdale. It is not for preventative detention except 
----
    Mr. Russell. And we understand the lengthy detentions, in 
fact, not just in terms of, you know, unauthorized aliens that 
are in our land that have committed criminal activity but we 
see it on a number of other issues with national security. What 
can Congress do within the scope of the Constitution and these 
precedents that we have had in the past to allow you to do your 
job? This isn't the first time since we have been wearing 
tricorn hats that we have dealt with criminals that are 
illegally in our country.
    Mr. Ragsdale. Again, certainly this hearing is helpful. 
Putting pressure on countries abroad to issue travel documents 
solves the problem from the right angle. It is not a question 
of necessarily more detention, but it is the speed in which we 
can remove people. So I think that is particularly helpful.
    Again, I very much take the point from the Representative 
from Connecticut. There are things we can do better, and we 
need to redouble our efforts with the State Department to put 
pressure on countries to issue travel documents.
    Mr. Russell. Well, in that regard with the State 
Department, now, there has been testimony here today that no 
real direct request from State Department have been forthcoming 
to address some of this issue, yet in April ICE director Sarah 
Saldana stated that with respect to the so-called recalcitrant 
countries that ICE is working through diplomatic channels with 
its partners at Department of State to increase repatriations 
to the previously noncompliant countries and that progress had 
been made.
    So my question to you, Madam Ambassador, is this. With 
which recalcitrant countries has the situation improved?
    Ms. Bond. If we look specifically at--to, for example, of 
the countries that Director Saldana raised specifically in 
letters to us this spring, we are seeing response from Guinea 
and from Liberia to resume or accelerate the removal--
identification and removal of their citizens. There's a team 
from Guinea that has arrived this week to finalize an MOU with 
the U.S. Government and to look at specific cases, interview 
specific individuals to make a determination of whether they 
are citizens and then document them. So those are two examples 
of countries where ICE has on the record--but it didn't come as 
a surprise because we're working together, but they said we are 
very concerned about these countries and want to see greater 
pressure brought to bear. And we are seeing the results of that 
pressure.
    Mr. Russell. Okay. Both of you I know, and you have stated 
here, and we have certainly seen the view from the members' 
questioning today believe that no criminals from foreign 
countries should be released into the American public. I mean, 
we all believe that. You have stated that. And so my final 
question to both of you is what are you willing to personally 
do to prohibit these individuals from remaining in our country 
within the scope and power of your current position? Madam 
Ambassador?
    Ms. Bond. We've described the fact that we work very 
closely with ICE on these cases. One of the things that I want 
to do is to look at taking members of my staff and actually 
having them work directly, let's say, at ICE so that they're 
seeing the individual cases and considering are there elements 
of this where we might be able to take some action or are there 
elements of this and the other cases where we might be able to 
say to a foreign government this aspect of this case clearly 
shows that you need to take action on this. In other words, 
what I'm looking at is how can we work even more closely 
together so that where there are opportunities to move a case 
more quickly, it'll be spotted and we can take that action.
    Mr. Russell. Okay. Mr. Ragsdale?
    Mr. Ragsdale. So in addition to everything the assistant 
secretary said, you know, we need to make sure that every 
single one of our officers is responsible for this process, is 
equipped with the best tools to do their job. And clearly, that 
is with the access to what Consular Affairs can do but even in 
terms of best practices around the country where we have 
consuls located in certain cities that are more amenable to 
issuing travel documents, making sure that we are physically 
putting in individuals who appear to be--from a country that's 
recalcitrant in front of a consular officer, and then also just 
to make sure that our guidance is fully updated. We will again 
carefully look at what the IG has done and what the follow-on 
report has done and make sure that every best practice is fully 
implemented.
    Mr. Russell. Well, I thank you for those answers. And while 
the formal questioning is complete, I would like to recognize 
Ranking Member Cummings for any final thoughts from today's 
hearing.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    I think it is abundantly clear, as I said a little bit 
earlier, that we can do better. I want to thank Mr. Courtney 
for being a part of all of this. This is one case that shows 
how serious this situation is and how, when there is failure--
and I do consider there are some failures here, something went 
wrong, a lot went wrong--but we have got to deal with this. And 
I know we have the power to do it, and we have got to put our 
minds together and do better.
    So often in this committee we are divided on partisan lines 
unfortunately. And when we have issues where we see things in a 
bipartisan way, you know, which is wonderful, then I think that 
that should tell everybody something. And what it should tell 
you is that we are very, very serious about this, and all of us 
have very genuine concerns.
    And so I am looking forward to hearing about progress. It 
is one thing to talk. It is another thing to deliver. And it is 
one thing to make excuses. It is another thing to carry out the 
letter of the law. And if the law is not sufficient, we need to 
know that because it is up to us to create those laws so that 
you can do what you have to do effectively and efficiently.
    And so I thank you two for being here, and I look forward 
to hearing about the significant progress that you will be 
making. Thank you very much. And thank you, Mr. Chairman.
    Mr. Russell. We thank the ranking member for those 
comments, and I would like to, you know, agree with that. We 
know it is a difficult problem, but here is a great 
opportunity. We have virtually this entire committee, we have 
people outside of our committee, we have broad bipartisan 
support to do nothing but aid and assist your efforts.
    What we need is a commitment that where there are 
roadblocks, where there are obstacles, with this much political 
will and with this much American public desire, there ought to 
be nothing that would stop us in a case of solving these 
problems. It is not insurmountable.
    And so my challenge to each of you would be within the 
scope and the authority that you have been blessed to have as 
officials in this great republic, don't try to find ways that 
you can't get around or just accept that as some obstacle. You 
have the will of the American people behind you. You have the 
help of this committee. You have the help and aid of bipartisan 
effort in this Congress. We cannot take no for an answer 
because when we do, what happens is that the faith of the 
American public in our institutions erodes. And if we lose 
that, then our problems are far greater than the issue that we 
have discussed at length here at hand.
    I want to thank our witnesses for their patience and their 
thorough answers. We still have work to do, and there are a lot 
of unanswered things that we have requested. And I would ask 
that you show due diligence to get that to us. Oft times we 
come to this committee and we have promises and we don't see 
those reports. Please take due care and diligence to get that 
to us. But thank you for taking your time to appear today.
    And if there is no further business, without objection, the 
committee stands adjourned.
    [Whereupon, at 12:07 p.m., the committee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
               
               
               
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
              
               
               
                                 [all]
</pre></body></html>
